<html>
<title> - RAILROAD AND HAZARDOUS MATERIALS TRANSPORTATION PROGRAMS: REFORMS AND IMPROVEMENTS TO REDUCE REGULATORY BURDENS</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]





                    RAILROAD AND HAZARDOUS MATERIALS
                    TRANSPORTATION PROGRAMS: REFORMS
                       AND IMPROVEMENTS TO REDUCE
                           REGULATORY BURDENS

=======================================================================

                                (112-23)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                       RAILROADS, PIPELINES, AND
                          HAZARDOUS MATERIALS

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 7, 2011

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


         Available online at: http://www.gpo.gov/fdsys/browse/
        committee.action?chamber=house&committee=transportation


                  U.S. GOVERNMENT PRINTING OFFICE
65-645 PDF                WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001







             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                    JOHN L. MICA, Florida, Chairman

DON YOUNG, Alaska                    NICK J. RAHALL II, West Virginia
THOMAS E. PETRI, Wisconsin           PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         JERRY F. COSTELLO, Illinois
JOHN J. DUNCAN, Jr., Tennessee       ELEANOR HOLMES NORTON, District of 
FRANK A. LoBIONDO, New Jersey        Columbia
GARY G. MILLER, California           JERROLD NADLER, New York
TIMOTHY V. JOHNSON, Illinois         CORRINE BROWN, Florida
SAM GRAVES, Missouri                 BOB FILNER, California
BILL SHUSTER, Pennsylvania           EDDIE BERNICE JOHNSON, Texas
SHELLEY MOORE CAPITO, West Virginia  ELIJAH E. CUMMINGS, Maryland
JEAN SCHMIDT, Ohio                   LEONARD L. BOSWELL, Iowa
CANDICE S. MILLER, Michigan          TIM HOLDEN, Pennsylvania
DUNCAN HUNTER, California            RICK LARSEN, Washington
ANDY HARRIS, Maryland                MICHAEL E. CAPUANO, Massachusetts
ERIC A. ``RICK'' CRAWFORD, Arkansas  TIMOTHY H. BISHOP, New York
JAIME HERRERA BEUTLER, Washington    MICHAEL H. MICHAUD, Maine
FRANK C. GUINTA, New Hampshire       RUSS CARNAHAN, Missouri
RANDY HULTGREN, Illinois             GRACE F. NAPOLITANO, California
LOU BARLETTA, Pennsylvania           DANIEL LIPINSKI, Illinois
CHIP CRAVAACK, Minnesota             MAZIE K. HIRONO, Hawaii
BLAKE FARENTHOLD, Texas              JASON ALTMIRE, Pennsylvania
LARRY BUCSHON, Indiana               TIMOTHY J. WALZ, Minnesota
BILLY LONG, Missouri                 HEATH SHULER, North Carolina
BOB GIBBS, Ohio                      STEVE COHEN, Tennessee
PATRICK MEEHAN, Pennsylvania         LAURA RICHARDSON, California
RICHARD L. HANNA, New York           ALBIO SIRES, New Jersey
STEPHEN LEE FINCHER, Tennessee       DONNA F. EDWARDS, Maryland
JEFFREY M. LANDRY, Louisiana
STEVE SOUTHERLAND II, Florida
JEFF DENHAM, California
JAMES LANKFORD, Oklahoma
VACANCY

                                  (ii)



     Subcommittee on Railroads, Pipelines, and Hazardous Materials

                  BILL SHUSTER, Pennsylvania, Chairman

GARY G. MILLER, California           CORRINE BROWN, Florida
SAM GRAVES, Missouri                 JERROLD NADLER, New York
SHELLEY MOORE CAPITO, West Virginia  RICK LARSEN, Washington
JEAN SCHMIDT, Ohio                   TIMOTHY H. BISHOP, New York
CANDICE S. MILLER, Michigan          MICHAEL H. MICHAUD, Maine
JAIME HERRERA BEUTLER, Washington    GRACE F. NAPOLITANO, California
RANDY HULTGREN, Illinois             DANIEL LIPINSKI, Illinois
LOU BARLETTA, Pennsylvania           JASON ALTMIRE, Pennsylvania
LARRY BUCSHON, Indiana               TIMOTHY J. WALZ, Minnesota
BILLY LONG, Missouri                 LAURA RICHARDSON, California
PATRICK MEEHAN, Pennsylvania         ALBIO SIRES, New Jersey
RICHARD L. HANNA, New York           PETER A. DeFAZIO, Oregon
STEPHEN LEE FINCHER, Tennessee       JERRY F. COSTELLO, Illinois
JEFFREY M. LANDRY, Louisiana         NICK J. RAHALL II, West Virginia
JEFF DENHAM, California                (Ex Officio)
JOHN L. MICA, Florida (Ex Officio)
VACANCY

                                 (iii)













                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................   vii

                               TESTIMONY

Bruno, Stephen J., Vice President, Brotherhood of Locomotive 
  Engineers and Trainmen.........................................     5
Chambers, Ray B., Executive Director, Association of Independent 
  Passenger Rail Operators.......................................     5
Conley, John L., President, National Tank Truck Carriers.........     5
Fauver, Toby L., AICP, Deputy Secretary, Local and Area 
  Transportation, Pennsylvania Department of Transportation......     5
Hamberger, Edward R., President and CEO, Association of American 
  Railroads......................................................     5
Hart, Hon. Christopher A., Vice Chairman, National Transportation 
  Safety Board...................................................     5
Hart, Thomas A., Jr., Esq., Vice President, Government Affairs 
  and General Counsel, US High Speed Rail Association............     5
Inclima, Rick, Director of Safety, Brotherhood of Maintenance of 
  Way Employes Division..........................................     5
McHugh, Joseph H., Vice President, Government Affairs and 
  Corporate Communications, Amtrak...............................     5
Millar, William, President, American Public Transportation 
  Association....................................................     5
O'Connor, Kevin B., Assistant to the General President, 
  International Association of Fire Fighters.....................     5
Parker, Leonard, National Legislative Director, Brotherhood of 
  Railroad Signalmen.............................................     5
Paul, Scott N., Executive Director, Alliance for American 
  Manufacturing..................................................     5
Pileggi, Mary L., North American Logistics Manager, Dupont, on 
  behalf of American Chemistry Council...........................     5
Self, Gary, Vice President and General Manager, Nelson Brothers, 
  Inc., representing the Institute of Makers of Explosives.......     5
Simpson, Thomas D., President, Railway Supply Institute, Inc.....     5
Sramek, Helen M., President, Operation Lifesaver, Inc............     5
Stem, James A., Jr., National Legislative Director, United 
  Transportation Union...........................................     5
Timmons, Richard F., President, American Short Line and Regional 
  Railroad Association...........................................     5

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Bruno, Stephen J.................................................    46
Chambers, Ray B..................................................    53
Conley, John L...................................................    56
Fauver, Toby L., AICP............................................    58
Hamberger, Edward R..............................................    62
Hart, Hon. Christopher A.........................................    87
Hart, Thomas A., Jr., Esq........................................    97
Inclima, Rick....................................................   103
McHugh, Joseph H.................................................   118
Millar, William..................................................   128
O'Connor, Kevin B................................................   145
Parker, Leonard..................................................   152
Paul, Scott N....................................................   160
Pileggi, Mary L..................................................   169
Self, Gary.......................................................   173
Simpson, Thomas D................................................   177
Sramek, Helen M..................................................   183
Stem, James A., Jr...............................................   187
Timmons, Richard F...............................................   196

                       SUBMISSIONS FOR THE RECORD

Brown, Hon. Corrine, a Representative in Congress from the State 
  of Florida, request to include the statement from the Air Line 
  Pilots Association, International, entitled, ``Reducing 
  Regulatory Burdens and Ensuring Safe Transportation of 
  Hazardous Materials''..........................................    33
Inclima, Rick, Director of Safety, Brotherhood of Maintenance of 
  Way Employes Division, request to submit the following 
  documents for the record:

  Letter to Hon. Bill Shuster, a Representative in Congress from 
    the State of Pennsylvania, and to Hon. Corrine Brown, a 
    Representative in Congress from the State of Florida.........   199
  Docket No. DOT-OST-2011-0025: Regulatory Review of Existing DOT 
    Regulations, Joint Written Comments of Rail Labor 
    Organizations................................................   201
  Hazardous Materials: Improving the Safety of Railroad 
    Transportation of Hazardous Materials, Docket No. FRA-2011-
    0004, Joint Written Comments of Seven Rail Labor 
    Organizations................................................   207
  Risk Reduction Program ANPRM, Docket No. FRA-2009-0038, Joint 
    Written Comments of Seven Rail Labor Organizations...........   213
  Evaluation of U.S. Department of Transportation/Pipeline and 
    Hazardous Materials Safety Administration Hazardous Materials 
    Instructor Training Program (HMIT), 2009-2010 Program Year, 
    Railway Workers Hazardous Materials Training Program--
    National Labor College (tables, appendices, and chart 
    omitted).....................................................   229

                        ADDITIONS TO THE RECORD

Bennett, Bruce, President, Stage 8 Locking Fasteners, statement 
  for the record.................................................   265
Capon, Ross B., President and CEO, National Association of 
  Railroad Passengers, statement for the record..................   268
Wilkins, Phyllis, Chairman of the Board, United States Maglev 
  Coalition, testimony for the record............................   271


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



 
                    RAILROAD AND HAZARDOUS MATERIALS
                    TRANSPORTATION PROGRAMS: REFORMS
                       AND IMPROVEMENTS TO REDUCE
                           REGULATORY BURDENS

                              ----------                              


                        THURSDAY, APRIL 7, 2011

                  House of Representatives,
               Subcommittee on Railroads, Pipelines
                           and Hazardous Materials,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 9:07 a.m. in 
Room 2167, Rayburn House Office Building, Hon. Bill Shuster 
(Chairman of the subcommittee) presiding.
    Mr. Shuster. The hearing will come to order. I thank 
everybody for being here this morning. I apologize for being 
tardy. I would blame it on the traffic, but really I have to 
blame it on myself. I did not plan to deal with the traffic, so 
I should have got up earlier and put more time out there to 
make sure I could get around town. But we are here, and again I 
want to thank everybody for being here this morning.
    We are going to do a transportation bill here in the coming 
months, and we wanted to have an opportunity for stakeholders 
to be able to have one last shot at telling us what they think 
we should be doing. So we are going to get everybody on record 
today.
    We have got 19 witnesses today. They tell me that Jimmy 
Duncan did the same amount of witnesses in 2 hours. So if those 
of you in the room believe that rail is more efficient, we are 
going to do it in less time than Jimmy Duncan did it in his 
highways hearing. Four minutes per witness, I am going to be 
brutal with the gavel. I will probably start tapping when the 
yellow light comes on, just to remind you that your time is 
going to end.
    But again, we are looking forward to hearing from everybody 
here today. John Mica and myself and others on the committee 
crisscrossed the country, listening to folks to hear across 
this country what they wanted to see in a new transportation 
bill. Our message was very clear, that we are going to have to 
figure out ways to do more with less. And that is the reality 
of Washington and this country today.
    But I am confident, after traveling the country, that we 
can do more with less. The States are on board. The 
stakeholders that we heard from across the country understand 
that we have to do this. And it is going to be incumbent upon 
us here in Washington to produce a bill that gets the Federal 
Government out of the way, or at least gets them lined up as we 
move these projects forward to move them forward with speed and 
to be financially responsible, as we move forward.
    I am going to give Members an opportunity--first of all, 
yield to the Ranking Member, Ms. Brown, for her opening 
statement.
    Ms. Brown. Thank you, thank you. I want to thank Chairman 
Shuster for holding today's hearing, allowing all of the 
stakeholders to express their views on the upcoming bill to 
reauthorize the Nation's surface transportation program.
    I believe wholeheartedly that authorizing a 6-year surface 
transportation bill with the appropriate funding levels and 
policy will give the economy just the kind of kick-start it 
needs.
    We are experiencing a renaissance in passenger rail in this 
country. And if we want to keep up with our international 
competitors, we need to make a significant investment in 
passenger and high-speed rail. I have advocated for the support 
of a dedicated source of funding for rail that would encourage 
the committee to include a minimum of $53 billion for high-
speed and intercity passenger rail over the life of the bill, 
and $53 billion is what the administration had requested. 
Compared to the funding levels in the overall bill, and the 
money being spent in other countries on rail, $53 billion is a 
drop in the bucket.
    Although we have some very small-minded governors, support 
for high-speed rail is still very high in this country. The FRA 
received more than 90 applications from 24 States, the District 
of Columbia, and Amtrak for the $2.4 billion that Florida 
turned back. The request was for nearly $10 billion.
    I also believe that this reauthorization offers us an 
opportunity to improve the Railroad Rehabilitation and 
Improvement Finance, RRIF, loan program. RRIF can help 
railroads, shippers, and State meet their rail infrastructure 
investment needs. But I do not think we are taking full 
advantage of the program. I met with several railroads and 
others, and they tell me time and time again how difficult the 
application process is to navigate, how time consuming, how 
expensive, how they cannot use studies from one DOT agency to 
the other. I really do believe this is an area that we can work 
together to do better.
    The draft surface transportation authorization act of 2009 
made significant changes in the RRIF program, which I proposed. 
The bill authorizes the Secretary to reduce the interest to be 
paid on direct loans provided to railroads, State and local 
government, and eligibility for the sole purpose of installing 
positive train control, allowing applicants to use private 
insurance, including BUN insurance, in lieu of credit risk 
premiums, allowing applicants to pay the credit risk premium 
over the life of the loan.
    The draft bill also authorized appropriations to the 
Secretary in reducing the interest rate for loans using--
installing PTC. I hope that these provisions will be included 
in the new bill.
    I want to take this time to also express my strong support 
for Amtrak. Congress has micro-managed and financially starved 
them for most of their existence. We created Amtrak because the 
freight rail could not make a profit on passenger service, yet 
we continue to hammer Amtrak for not making enough money. The 
Bush administration even went so far as to propose zero funding 
for Amtrak, trying to bankrupt it.
    I know that Chairman Mica wants to revisit some issues in 
the Amtrak bill that was signed into law on 2008. I hope that 
whatever he proposes, that we can work together and that we do 
negotiations like we did during the 2008 negotiation of the 
bill.
    Our subcommittee is also making major strides in improving 
the safety in the railroad industry. We are improving hours of 
service and training standards, improving the working and 
living conditions of railroad employees, and implementing 
several critical NTSB standards, including positive train 
control, which can save both lives and money.
    All of the stakeholders are working very hard together to 
implement these rules and make adjustments where we needed--we 
need to do this working together.
    Another issue that is critically important to the Gulf 
States--and really, the entire Nation--is restorement of the 
Sunset Limited route. This route served my home State of 
Florida and other States along the Gulf Coast. But sadly, it 
has been shut down since Hurricane Katrina. The people of the 
State have been denied the ability to travel by rail, and most 
important, they have lost the ability to move from harm's way 
during a disaster. If Amtrak is unwilling to operate the line, 
then we may very well be a good place for a private company to 
provide service on this route.
    Lastly, I want to encourage the committee to include 
language that ensures that minorities, veterans, and women-
owned businesses are getting their fair share of the 
transportation pie. Federal transportation spending has 
historically served as a critical means to empower socially 
disadvantaged business. Thanks to the effort of the 
Congressional Black Caucus and a bipartisan group of members of 
the House Transportation Committee, including former Chairman, 
Bud Shuster, every major transportation bill since 1983 has 
mandated minimum levels of participation for minorities or 
women-owned companies.
    Unfortunately, because the Federal Railroad Administration 
has not historically been a significant grant-making agency, it 
is not currently authorized to require opportunities for 
disadvantaged business. I strongly encourage the committee to 
take steps necessary to provide the FRA with the authority and 
to develop other programs such as small business set-aside, 
subcontracting, setting goals, and other avenues that ensure 
that minorities and disadvantaged businesses have their fair 
share of Federal funding contracts.
    During the hearing process, we heard from witnesses who 
want to limit the scope of the bill to just build roads. That 
would be a mistake. We need a comprehensive bill that improves 
our transportation system for everyone who uses it, whether 
they are driving, walking, or taking public transportation--
public transit. My transportation person is here, Mr. Mike 
Blalie, who runs my transit system and my roads system. Wave, 
Mr.--thank you.
    The stimulus bill has proven that transportation 
infrastructure funding provides benefits to the community and 
puts people back to work. From every billion dollars in 
infrastructure funding, 32,000 permanent-paid jobs are created. 
And that is exactly what this country needs.
    With that, I want to welcome our panelists, and I am 
looking forward to the hearing. I yield back the balance of my 
time.
    Mr. Shuster. I thank the Ranking Member. If nobody took 
notice, she is fired up this morning.
    [Laughter.]
    Mr. Shuster. I am glad I am not the governor of Florida.
    Thank you for that opening statement. None of the other 
Members have an opening statement, so we are going to proceed. 
I trust that Jimmy Miller has explained to you how we are going 
to do this. After you get done, get up, the next person is 
going to sit in your seat, and we are going to roll through 
this. Again, we have got to make sure we do it faster than 
Jimmy Duncan did it.
    But--and if you have a longer statement, it will be in the 
record. So, as we move forward to write the bill, we will have 
all your thoughts on paper and in the record.
    So again, thank you, everybody, for coming. Remember, 4 
minutes.
    And we will start with the Honorable Christopher Hart, who 
is the vice chairman of the National Transportation Safety 
Board.
    So, Mr. Hart, proceed, please.

TESTIMONY OF HON. CHRISTOPHER A. HART, VICE CHAIRMAN, NATIONAL 
TRANSPORTATION SAFETY BOARD; JOSEPH H. MCHUGH, VICE PRESIDENT, 
GOVERNMENT AFFAIRS AND CORPORATE COMMUNICATIONS, AMTRAK; EDWARD 
   R. HAMBERGER, PRESIDENT AND CEO, ASSOCIATION OF AMERICAN 
 RAILROADS; RICHARD F. TIMMONS, PRESIDENT, AMERICAN SHORT LINE 
 AND REGIONAL RAILROAD ASSOCIATION; WILLIAM MILLAR, PRESIDENT, 
  AMERICAN PUBLIC TRANSPORTATION ASSOCIATION; THOMAS A. HART, 
   JR., ESQ., VICE PRESIDENT, GOVERNMENT AFFAIRS AND GENERAL 
   COUNSEL, US HIGH SPEED RAIL ASSOCIATION; RAY B. CHAMBERS, 
 EXECUTIVE DIRECTOR, ASSOCIATION OF INDEPENDENT PASSENGER RAIL 
 OPERATORS; TOBY L. FAUVER, AICP, DEPUTY SECRETARY, LOCAL AND 
AREA TRANSPORTATION, PENNSYLVANIA DEPARTMENT OF TRANSPORTATION; 
 THOMAS D. SIMPSON, PRESIDENT, RAILWAY SUPPLY INSTITUTE, INC.; 
   SCOTT N. PAUL, EXECUTIVE DIRECTOR, ALLIANCE FOR AMERICAN 
MANUFACTURING; HELEN M. SRAMEK, PRESIDENT, OPERATION LIFESAVER, 
INC.; JAMES A. STEM, JR., NATIONAL LEGISLATIVE DIRECTOR, UNITED 
    TRANSPORTATION UNION; STEPHEN J. BRUNO, VICE PRESIDENT, 
   BROTHERHOOD OF LOCOMOTIVE ENGINEERS AND TRAINMEN; LEONARD 
PARKER, NATIONAL LEGISLATIVE DIRECTOR, BROTHERHOOD OF RAILROAD 
  SIGNALMEN; RICK INCLIMA, DIRECTOR OF SAFETY, BROTHERHOOD OF 
MAINTENANCE OF WAY EMPLOYES DIVISION; GARY SELF, VICE PRESIDENT 
 AND GENERAL MANAGER, NELSON BROTHERS, INC., REPRESENTING THE 
 INSTITUTE OF MAKERS OF EXPLOSIVES; JOHN L. CONLEY, PRESIDENT, 
 NATIONAL TANK TRUCK CARRIERS; MARY L. PILEGGI, NORTH AMERICAN 
  LOGISTICS MANAGER, DUPONT, ON BEHALF OF AMERICAN CHEMISTRY 
   COUNCIL; AND KEVIN B. O'CONNOR, ASSISTANT TO THE GENERAL 
     PRESIDENT, INTERNATIONAL ASSOCIATION OF FIRE FIGHTERS

    Mr. Christopher Hart. Chairman Shuster, Ranking Member 
Brown, and members of the subcommittee, thank you for giving 
the National Transportation Safety Board the opportunity to 
appear today to discuss improving transportation safety. I am 
Christopher Hart, Vice Chairman of the NTSB.
    My written testimony addresses the safety of several 
railroad and hazardous materials transportation programs, 
including positive train control, air transportation of lithium 
batteries, wet lines on highway cargo tanks, loading and 
unloading of hazardous materials in railroad tank cars and 
highway cargo tanks, and highway cargo tank rollovers.
    In the few minutes I have this morning, I will focus on the 
first of these topics--positive train control--and the 
significant improvement to rail safety that it will bring. The 
competent, highly trained professionals in the railroad 
industry all share a common trait. No matter how good they are, 
they may occasionally make mistakes, just like any other human 
being. Positive train control provides a very important back-
up, a redundancy, against the inevitability of human error in 
four railroad accident scenarios that are most likely to cause 
injury and death.
    Those four scenarios are: collisions between trains, 
overspeed derailments, incursions into work areas, and going 
through a switch that is incorrectly aligned. That is why the 
NTSB placed positive train control on its Most Wanted List when 
it created the Most Wanted List in 1990. Positive train control 
remained on that list until we removed it when Congress, in its 
wisdom, enacted the Rail Safety Improvement Act of 2008. This 
Act requires Class I railroads to implement positive train 
control by December 31, 2015, over rail lines that carry 
poisonous by inhalation or toxic by inhalation hazardous 
materials, or that carry regularly scheduled intercity or 
commuter passenger trains.
    In the past 5 years, the NTSB has investigated 20 railroad 
accidents that involve collisions or derailments, some of which 
are shown on these slides. Of those 20, most resulted from 
operator error, and more than half could have been prevented or 
mitigated by positive train control.
    The redundancy that is provided by positive train control 
is becoming even more crucial as we are beginning to see a very 
disturbing increase in operator distraction from personal 
electronic devices in all modes of transportation. An example 
of this is the distraction that led to the tragic collision in 
2008 between a passenger train and a freight train in 
Chatsworth, California, that resulted in 25 fatalities and more 
than 130 injuries.
    Another technology implementation success story occurred 
with the airlines, with the advent of terrain awareness warning 
systems to warn pilots when they are dangerously close to 
terrain, and dangerously close to one of the most lethal types 
of aviation accidents, commonly known as controlled flight into 
terrain, or CFIT. That warning system serves as a very 
important backup or redundancy for the occasional human error 
by competent, highly trained pilots.
    Thanks to the requirement in the U.S. for terrain awareness 
warning systems, we have not had a domestic CFIT fatality 
involving a passenger air carrier since 1996, despite the fact 
that CFIT is the second leading cause of aviation accidents 
worldwide.
    The Rail Safety Improvement Act of 2008 and the Federal 
Railroad Administration's 2009 rulemaking implementing the Act 
will significantly improve rail safety by creating much-needed 
safety redundancy for the inevitable failures of human 
performance, such as those listed in this slide.
    In closing, the NTSB was created to advocate for 
transportation safety, and to push Federal and State agencies 
and industry to do the right thing for safety. Chairman 
Shuster, Ranking Member Brown, and members of this 
subcommittee, implementing positive train control is the safe 
thing to do and the right thing to do.
    Thank you again for the opportunity to appear before you 
today. Mr. Stephen Klejst, director of the NTSB's office of 
Railroad, Pipeline, and Hazardous Materials Investigations, 
will remain to respond to questions. Thank you.
    Mr. Shuster. Thank you very much, Mr. Hart. I appreciate 
that.
    And next, Mr. Joe McHugh, vice president of government 
affairs and corporate communications for Amtrak.
    Mr. McHugh. Thank you, Mr. Shuster, Ms. Brown. It is very 
nice to see all of you here, members of the committee. Thank 
you for this opportunity to testify.
    Briefly, we have been doing very well at Amtrak. We have 
just this week announced our 17th consecutive month of 
ridership increases. And over the period from 2000 we have had 
a 40-percent increase in ridership for the corporation.
    Briefly, we at Amtrak like the broad contours of the 
administration's fiscal year 2012 budget proposal, which begins 
to move rail in the direction of making it an equal partner in 
surface transportation funding and policy. The proposal would 
consolidate traditional Amtrak and high-speed rail programs and 
provide some degree of funding stability and certainty that 
would help us to advance our systems, and would make it similar 
to those available for highway and aviation systems.
    As the only intercity rail passenger provider, and the only 
currently operator of high-speed service in the United States, 
we believe that a rail title--the surface bill should build on 
the proposal advanced initially by the administration. And we 
would recommend five objectives to that.
    First, we would recommend that the rail title provide a 
multiyear dedicated funding source for high-speed service and 
for intercity passenger rail. We can define what high-speed 
means, but we should begin to look at opportunities to advance 
rail passenger service, particularly connecting major 
metropolitan areas. Major capital programs such as railroad 
construction require a commitment of funds, and are very hard 
to initiate, let alone accomplish, without some funding 
certainty.
    Second, we would hope to establish a national investment 
strategy to guide project planning and execution. We would look 
to future trends, and we would look to work with the FRA, 
regional body, State governments, and other key stakeholders 
that we have traditionally worked with.
    Third, we would ask that the legislation not overlook some 
of the unique assets and practices that Amtrak has to offer. We 
have a lot of experience now, over 40 years of operating 
service throughout the United States, in 46 States, and we have 
an incredible amount of reserves, assets, and knowledge. We 
would hope that the committee would seek to leverage some of 
those capabilities as they move forward on the legislation.
    Fourth--five ideas here--fourth, the rail title should also 
ensure coordination between various stakeholders, better 
planning, and project execution among FRA, Amtrak, the region 
States, and our host railroad partners as a requirement to 
ensure that new and existing services are integrated with other 
systems. And that will help maximize benefits and provide 
better economies of scale. Planning coordination should 
facilitate and not hinder multistate partnerships, such as what 
we have in the northeast corridor and what we have also seen 
developing in the Midwest, with the Midwest regional rail 
initiative.
    Finally, we would ask that--the rail title is an 
opportunity to bring some order to licensing and insurance 
requirements for passenger rail operators. Amtrak is required 
by statute to have $200 million in insurance coverage. Other 
operators do not necessarily have to carry insurance, even if 
they receive funding under other Federal programs other than 
PRIIA. The lack of a standard Federal liability requirement is 
a major impediment, and makes it difficult to develop new 
services, and raises the risk that liability for damages could 
be offloaded on the taxpayer.
    It is very clear that the basic assumptions about travel 
that had governed our policy for decades have changed. Even the 
development of electric automobiles raises the implicit 
question of whether a gas tax will continue to be a reliable 
funding mechanism 8 years out.
    So, we look forward to working with you on addressing those 
problems, and we hope that this surface reauthorization bill 
will become a revolutionary and not evolutionary advancement in 
transportation. And we hope that we will reduce some of the 
funding silos and have a more results-based funding 
requirement.
    Thank you very much.
    Mr. Shuster. Thank you, Mr. McHugh. I appreciate that.
    And next up, Mr. Ed Hamberger, president and CEO of 
Association of American Railroads. Mr. Hamberger, please 
proceed.
    Mr. Hamberger. Thank you, Mr. Chairman, members of the 
committee, for the opportunity to present the views of AAR 
members on reauthorization of SAFETEA-LU.
    An efficient and safe transportation system is, of course, 
essential to the growth and prosperity of our Nation. The 
system today is overburdened. And it is important that you have 
acknowledged this problem, and are seeking ways to fix it. Be 
assured that America's railroads stand ready to work with all 
policymakers and stakeholders to be part of that solution.
    Indeed, moving more freight and passengers by rail can 
provide enormous public benefits: less pollution, less 
congestion, less energy consumption.
    As you work toward legislation, we would like you to 
consider three key points. The first is the importance of a 
level playing field to freight railroads. This does not exist 
today. America's freight railroads operate almost exclusively 
on infrastructure that they own, build, maintain, and pay for 
themselves. Indeed, we pay taxes on our own right of way.
    By contrast, trucks operate on publicly financed highways, 
and the taxes they pay do not come close to covering the damage 
they inflict on the Nation's highways. This already places 
railroads at a competitive disadvantage. A recent study of DOT 
data indicates that 80,000-pound trucks underpay their fair 
share today by $.28 a gallon. Yet there are several proposals 
to increase the current size and weight limit on trucks. None 
of these proposals contains measures that would meaningfully 
reduce the tax subsidy enjoyed by larger trucks.
    In fact, at 97,000 pounds, the taxpayer subsidy to the 
trucks would be $1.17 a gallon. And the result would be 
significant diversion of freight rail to highway--freight from 
rail to highway, with particularly dire consequences for short 
line railroads.
    The second point we would like you to consider is the 
importance of regulatory certainty for railroads. Thanks to 
partial deregulation brought on by the Staggers Act, railroads 
were able to significantly increase investment and 
infrastructure and equipment. Since 1980, we have invested some 
$480 billion private funds--that's $.40 out of every revenue 
dollar--into infrastructure and equipment. The industry 
appreciates the letters sent by the bipartisan leadership of 
the full committee and this subcommittee to the Surface 
Transportation Board opposing changes to the regulatory system 
that would impeded our ability to continue to make these needed 
investments. This year alone we anticipate a record $12 billion 
of investment in CapX.
    However, our ability to continue this level of investment 
is threatened and undercut by uncertainties created by issues 
such as: an overly broad positive train control mandate, as we 
discussed with this committee last month; high potential 
liability stemming from the common carrier obligation to carry 
extremely hazardous materials; proposals to impose a safety fee 
on railroads not charged to other industries; and proposals to 
create a freight fund to be financed by a fee on freight 
shipments.
    This imposition of such a fee would be especially 
egregious, since, as I have just noted, we already pay for our 
own infrastructure.
    Finally, there are a number of existing programs covered by 
this legislation that work very well, and we would hope they 
would continue. Among these is the section 130 grade crossing 
program that financing grade crossing safety improvements, 
which, along with educational programs and outreach from 
Operation Lifesaver, is credited with the fact that today grade 
crossing accidents, deaths, and injuries are at historic lows.
    We also believe Congress should continue to encourage 
metropolitan planning organizations to consider freight 
transportation needs, and we support, including the short line 
tax credit, CMAQ program, and public-private partnerships.
    Thank you for the opportunity to appear before you this 
morning.
    Mr. Shuster. Thank you very much, Mr. Hamberger. And next, 
General Richard Timmons, president of the American Short Line 
and Regional Railroad Association. General, please proceed.
    General Timmons. Good morning, Mr. Chairman, and members of 
the committee. Thank you for the invitation to be here today. I 
am Rich Timmons, president of the American Short Line and 
Regional Railroad Association. We represent 550 Class II and 
Class III railroads across North America. I appreciate the 
opportunity to list those items the Short Line Association 
believes should be included in the rail title of the SAFETEA-LU 
reauthorization bill.
    First, let me say that we endorse the concepts presented by 
Mr. Hamberger and the AAR, and I will expand on a number of 
those in this testimony. But each of their recommendations help 
the short line industry or make for a stronger Class I 
industry, which is good for the entire railroad industry, as a 
whole.
    Our first priority is to extend the short line 
rehabilitation tax credit, which expires at the end of this 
year. We know this is dealt with in the tax title of the bill, 
but our hope is to include the extension in your final SAFETEA-
LU reauthorization. And we want to emphasize how important this 
is to the short lines, to members of this committee.
    Congressman Shuster and Congressman Costello are original 
cosponsors of our current extension legislation, H.R. 721. In 
the last Congress we had 262 House cosponsors, including 57 
members of the Congress' T&I committee. We hope every member of 
the current T&I committee will sign on as a cosponsor of H.R. 
721.
    We also hope that in your discussions with the Ways and 
Means Committee you will take the time to emphasize how 
important the tax credit is to maximizing investment in 
infrastructure, preserving service to small and medium-sized 
shippers, and improving track safety. In a fiscal environment 
where Federal funds are funds for maintaining freight rail 
infrastructure will undoubtedly be constrained, the fiscally 
responsible step is to encourage private enterprise to fund 
private sector improvements with private dollars, and the 
section 45D does just that.
    We strongly encourage the committee to enact the so-called 
SHIPA legislation extending the current freeze on longer and 
heavier trucks to the entire national highway system. 
Increasing truck size and weights will divert rail traffic to 
the highways, increasing congestion and highway repair costs. 
The change will also create a huge shortfall between the truck 
share of highway damage and their contribution to those costs.
    As indicated, we support the AAR recommendation on positive 
train control. In addition, we believe the Federal Government 
should help pay for this unfunded mandate. Funding PTC is well 
beyond the resources of short line railroads. It will force 
short lines to reallocate money from much more important 
rehabilitation projects to a highly complex system that will 
result in virtually no safety benefits for the typical short 
line operation.
    As Chairman Mica and many other members of the committee 
have stressed repeatedly, the RRIF program has the ability to 
invest $35 billion into rail improvements without an 
appropriation, and using private sector commitments to repay 
the loans. However, absent improvements, this program will 
remain stuck where it has been for the past 10 years.
    In February, the short line industry testified before this 
committee concerning the RRIF program. And last month we 
participated in a T&I staff workshop on the same subject. We 
have made a number of recommendations, including providing a 
TIFIA-like subsidy that would allow more flexible loans, 
increasing FRA staffing resources, bringing the credit council 
and OMB participation into line with the 90-day requirement, 
and easing certain collateral requirements. We will work with 
the Congress to draft language on these subjects.
    We encourage the committee to eliminate the unintended 
impact on small railroads, the hours of service provisions in 
the Rail Safety Improvement Act of 2008. Clearly, they were 
drafted to address long-haul conditions, but do not fit the 
mostly daylight short-haul operations of small railroads. 
Granting relief from restrictions not at all relevant to small 
railroad operations will not impact safety, and continue the 
service which shippers expect from their Class II and Class III 
carriers.
    Finally, we urge you to reauthorize the rail relocation 
program. This is a--one of the very few programs that provide 
direct financial assistance to railroads. While railroads were 
able to compete for last year's Tiger funding program, the rail 
relocation program is geared specifically to railroads, and can 
be enormously effective in addressing rail safety issues 
associated with grade separations and improving movement in and 
out of yards and industrial parks.
    I appreciate the opportunity to present the views of the 
short line industry. We would be pleased to answer any 
questions that you may have at the appropriate time. Thank you 
very much, Mr. Chairman.
    Mr. Shuster. Thank you very much, General. Next, Mr. 
William Millar, the president of the American Public 
Transportation Association.
    Mr. Millar, please?
    Mr. Millar. Good morning, Mr. Chairman, Ranking Member 
Brown. On behalf of APTA's 1,500 public and private sector 
members, it is my pleasure to be here.
    APTA urges the Congress to enact a well-funded, 6-year, 
multimodal surface transportation bill as soon as possible. It 
is one of the most important actions Congress can take to 
improve mobility while preparing our Nation for the coming 
economic and population growth.
    Increasing ridership on commuter railroads and Amtrak 
indicates that Americans are clamoring for options to avoid 
high gas prices, congested roadways, and crowded airports. 
Commuter railroads are eager to meet demands for more service, 
but face significant obstacles in that effort.
    At the same time, operators want to improve safety. We are 
grateful that this committee, on March 17th, held a hearing on 
the Rail Safety Improvement Act, which requires, among other 
provisions, that commuter railroads implement positive train 
control by December 31, 2015.
    As the APTA witnessed explained that day, there are three 
key items needed to implement positive train control: first, 
adequate Federal funding; second, sufficient radio spectrum; 
and, third, more time to develop, test, and implement the 
required technologies. Implementing PTC on the Nation's 
commuter railroads will cost more than $2 billion. These costs 
are forcing commuter railroads to consider reducing service or 
deferring other critical system safety and state of good repair 
projects, in order to redirect limited funds to get PTC online 
by 2015. Examples of these deferrals include bridge 
replacements, electrical substation modernization, and shop and 
yard improvements.
    Deferring safety projects or cutting service should not be 
the price of implementing PTC. We urge the Congress to fund at 
least 80 percent of PTC costs for commuter railroads, extend 
PTC implementation deadline for commuter railroads by 3 years, 
and direct the Federal Communications Commission to set aside 
adequate radio spectrum at no cost to commuter railroads. If 
these things are done, PTC can happen very quickly.
    Turning to high-speed and intercity passenger rail, a 
recent survey of nearly 25,000 Americans found that 62 percent 
expected to use high-speed rail, if it were available, while 
only 11 percent said they would not. Amtrak reported record 
ridership last year with its higher speed Acela service 
ridership growing twice as fast as its regular service.
    Some 32 States plus the District of Columbia are forging 
ahead and planning and implementing rail improvements. A recent 
study found that each billion dollars invested in high-speed 
rail supports at least 24,000 jobs. That means that the 6-year 
investment proposed by President Obama would spur nearly 1.3 
million jobs in construction, manufacturing, and service 
industries. APTA supports the President's proposal, and we urge 
this committee to carefully consider the importance of creating 
and sustaining 1.3 million mostly private sector jobs.
    In order to properly fund--besides properly funding high-
speed and intercity rail, a long-term legislative authorization 
is also required. APTA supports passenger rail that connects 
with other modes of transportation, encourages the growth of 
rail freight service, provides for strong investment by the 
private sector, requires open and fair competition, expedites 
program delivery, and establishes common standards across DOT 
agencies for the efficient implementation of NEPA provisions, 
while adhering to Federal rail laws, Americans with Disability 
Act, and the inclusion of disadvantaged business enterprises.
    Mr. Chairman, thank you for the opportunity to be with you. 
I will look forward to answering your questions at the 
appropriate time.
    Mr. Shuster. Thank you very much, Mr. Millar.
    Next, Thomas Hart, the vice president of government 
affairs, and general counsel for the US High Speed Rail 
Association.
    Mr. Hart, proceed, please.
    Mr. Thomas Hart. Thank you, Chairman Shuster and Ranking 
Member Brown. On behalf of the United States High Speed Rail 
Association, its president, Andy Kunz, and its 250 members, I 
extend greetings to this prestigious subcommittee on railroads, 
pipelines, and hazardous material. I am here representing the 
USHSR as its vice president for government affairs and general 
counsel. I also serve as the director of the Washington office 
of the national law firm of Quarles and Brady.
    The United States High Speed Rail Association is a non-
profit trade association committed to advancing the state of--
and our nationwide true high-speed system, completed in phases 
across the country. Our mission is to build widespread public, 
business, and political support for a major investment in the 
Nation's high-speed rail network. We support a 6-year 
authorization bill under consideration by this subcommittee.
    The United States High Speed Rail Association is pleased to 
share its thoughts on how to expedite the development of high-
speed rail in the United States through the investment of 
private funds in this infrastructure.
    On January 27th I had the pleasure to testify in New York 
before the full committee. Many of you were there in New York. 
And the issue of public-private partnerships was discussed at 
great length. Shortly thereafter, we had a summit hearing in 
Washington, where subcommittee Chairman Bill Shuster and 
Ranking Member Corrine Brown and other Members of Congress and 
over 400 attendees participated in that focus discussion on the 
deployment of high-speed rail in America.
    We are delighted today to offer model legislation to 
establish a Federal program that will assist in the rapid 
creation of a true high-speed rail system funded in part by 
innovative public-private partnerships. Mr. Chairman, the model 
legislation is part of my testimony. I would like to have it 
introduced into the record.
    Mr. Shuster. It will be in the record. Thank you.
    Mr. Thomas Hart. Thank you. Presently, most of our national 
transportation systems are overloaded and in a state of 
disrepair. This causes delays and costs more than $100 billion 
per year in lost time and wasted fuel. The price of oil is 
already traded at over $100 a barrel, and is expected to 
continue to rise. The quicker we can build alternative forms of 
transportation, the better for the Nation.
    There are many corridors in the United States that are of 
high interest to private investment. One, of course, is the 
northeast corridor, which we have discussed among this panel, 
and among the committee on numerous occasions. The northeast 
corridor is ripe for high-speed rail investment and private 
investors stand ready to assist in that effort.
    Chicago is also a hub for high-speed rail traffic that 
could be very profitable. And the West Coast systems in 
California and Las Vegas also have great potential.
    To very quickly focus on the legislation that is being 
offered by the US High Speed Rail Association today, let me 
highlight a couple of key provisions. Section 19 talks about 
the small business initiatives that are necessary. It is true 
that the FRA has not yet developed a small business program, 
and they should do so rapidly. Also, we propose an economic 
development credit for transportation infrastructure developed 
around the train stations for high-speed rail.
    We also propose a creative way for private investment to 
come into Amtrak. There is only one shareholder of Amtrak, and 
that is the United States Government. We suggest that a private 
offering be made of Amtrak stock up to 5 percent. So let us 
test the market and see if Amtrak can stand the test of Wall 
Street.
    We also encourage expanding the RRIF program and the TIFIA 
program, and we do support the creation of an infrastructure 
bank.
    Mr. Chairman and Ranking Member, we are pleased to work 
with you through these issues, as this legislation moves 
through Congress and the Senate. Thank you again for your 
leadership in this issue, and we are ready to answer any 
questions or comments that you have regarding the legislation. 
Thank you.
    Mr. Shuster. Thank you, Mr. Hart. Next, Mr. Ray Chambers, 
who is the executive director of the Association of Independent 
Passenger Rail Operators. Mr. Chambers, please proceed.
    Mr. Chambers. Thank you.
    Our organization is only about 6 weeks old. We are 
dedicated to increasing the passenger rail network and 
increasing the development of the Nation's rail infrastructure. 
We testified before you on March 11th. We outlined a specific 
program at that time for reforms in the Passenger Rail 
Investment Improvement Act.
    At that time, Chairman Shuster, you made a statement that--
on PRIIA--``For the first time, rail capital infrastructure 
programs were established that gave the States primary control 
to improve and expand intercity passenger rail services.'' 
Expanding on that idea is the heart of what our association is 
all about.
    We are recommending a self-contained section to the rail 
title that would promote public-private partnering and 
passenger railroading. We are calling for a strong passenger 
rail commission that would oversee that program. One role of 
the commission will be to identify regulatory burdens and put 
forward new and expedited procedures.
    In the written testimony here I have outlined several areas 
where we believe reforms can be taken in the rail title of this 
bill. One of those is RRIF. What Ranking Member Brown outlined 
is very much in accord with where we would like to see RRIF go.
    We believe the section 214 passenger pilot program is too 
complex and should be streamlined. Similarly, the State-
supported rail program should be reformed. On that program, we 
believe that the authority of the States should be increased 
over State-supported routes of fewer than 750 miles, and that 
competition for operations should be encouraged.
    Also on the regulatory front we think that the 
environmental and other regulatory permitting of work, 
particularly on existing track, is too lengthy, too expensive, 
and is too complex. Right now, if a freight railroad wants to 
build a second track on an existing right of way with private 
money, it can be done with no regulatory approvals. If public 
funds are used to do exactly the same thing, there is a full-
blown environmental permitting and approval process. We 
recommend that if the line exists and a public project is 
approved, the freight standard for permitting improvement 
should be applied.
    Now, while passenger expansion is essential, we also 
believe it must not be at the expense of the freight railroads 
or labor. Negotiations for access should be arm's length, in 
terms of the freight railroads. PRIIA labor protections should 
be carried forward.
    Now, public-private partnering is relatively new to the 
American rail scene, and that is why we need a specific 
initiative or proposal to support it and enhance it. Many 
issues need to be worked through, and that is the purpose of 
the commission that we are proposing.
    We know that, in the final analysis, private partners will 
create efficiencies and cost savings that will be passed back 
to the States that will lower operating subsidies, will help 
guarantee loan repayments, and will improve services. These 
partnerships, by definition, include private sector 
participation.
    We think that our proposal is in direct line with what 
Chairman Mica and Shuster have called for to reduce regulatory 
burdens, to increase competition and private sector 
participation in passenger rail service. We also think that it 
is the best way to reach President Obama's goal of putting 
high-speed and intercity passenger rail option within the reach 
of most Americans.
    Finally, we applaud the leadership of this committee with 
the decision to make the next 6-year surface transportaion act 
a full inter-modal bill, along the lines of Ms. Brown's 
comments.
    We believe that a strong P3 program in the rail title with 
Federal oversight and State responsibility can begin to 
establish rail as the third American transportation option, 
along with highways and aviation. Thank you.
    Mr. Shuster. Thank you, Mr. Chambers. Next, Toby Fauver, 
who is the deputy secretary of local and area transportation 
for the Pennsylvania Department of Transportation. Or, as we 
like to call him, he is the Rail Guy.
    Mr. Fauver. Right.
    Mr. Shuster. So----
    Mr. Fauver. Correct. Thank you.
    Mr. Shuster. Proceed, please.
    Mr. Fauver. I am going to spend a little bit of time giving 
you some highlights of some of my written testimony. I want to 
start off by talking briefly about the projects that we have 
done in Pennsylvania and, in particular, just to give you a 
highlight of what we have accomplished.
    In 2006, we completed a partnership program with Amtrak to 
restore the Keystone Corridor between Harrisburg and 
Philadelphia. There is still a lot of work that needs to be 
done there. But we achieved a lot of success. We reduced travel 
time in that corridor to make it competitive with the 
automobile. Our express trains actually--you can travel between 
Harrisburg and Philadelphia faster than the automobile. And 
since 2006, ridership on that line has grown by 45 percent.
    But there is still a lot of challenges. Thirty years after 
the ADA law passed, we still have stations that do not meet 
ADA, that are not accessible. We still have challenges with 
equipment that does not meet ADA, and is not accessible. And we 
need to address that. Much of our infrastructure is still 80-
plus years old, needs to be replaced and meet state of good 
repair and improve reliability of the line.
    So, where are investment priorities? High-speed and 
intercity rail programs are about connecting high-density city 
areas. And doing so will promote higher levels of 
sustainability. In Pennsylvania, our population increased about 
1 percent over the past decade, but our population spread out 
in Pennsylvania, consuming a 50-percent increase in land for 
that population growth. And I believe that promoting intercity 
rail and good development around stations will help to reduce 
that trend.
    It is important to note that Federal dollars we were 
talking about for high-speed rail and the cost--they are 
focused on the cost for building systems. States and cities 
still have to address with how they are going to pay for the 
operating expense and maintenance expense, long term. In 
Pennsylvania, we have made those choices, and have been doing 
that since the 1980s, and have been contributing more and more 
every year. This past year we are contributing over $9 million, 
just the service between Harrisburg and Philadelphia.
    Many States, including Pennsylvania, are struggling with 
the new Federal requirements under section 209 of PRIIA, and it 
is something that States and AASHTO are working actively with 
Amtrak to try to address. But a State like ours will face a 
four to five times increase in charges for operating expense 
that we are not going to get any additional service or any 
improvements for. And that is going to be something that is 
going to be hard for our State legislature or governor to have 
to deal with, especially when it is a federally owned company, 
Amtrak, and our State has no say in labor contracts, overhead 
spending decisions, or work practices.
    We cannot ignore investing in rail infrastructure and 
expect that some day we are going to emerge with the best 
system in the world. We also cannot bury ourselves in 
bureaucracy that slow down projects and system development. I 
want to focus on a couple things that I would suggest for 
reauthorization.
    One of the things is that we need to eliminate the 
overlapping authority for NEPA clearance between our Federal 
departments, Federal agencies, under USDOT. We have experienced 
numerous projects where we have started with one source of 
Federal funding in a project, and then added another source of 
Federal funding from a different agency, had NEPA clearance 
from one agency, and then had to go back, spend a year-and-a-
half, two years, getting NEPA clearance from a second agency.
    That creates--number one, it creates a big time delay in 
delivering projects. It adds cost, cost growth in the project 
cost, and it also costs our State taxpayers more money, which 
didn't change the project or change the results. That is a big 
problem.
    NEPA is one law. It applies to all those agencies in the 
same way. But they have all interpreted it differently in the 
way they apply it.
    In the case of passenger rail, we need to learn from the 
rest of the world and think about separating infrastructure 
ownership from infrastructure operation, especially if we are 
going to expect to introduce competition and look at innovative 
practices, going forward. It is a big challenge. How do we 
introduce public-private partnerships when we have a railroad 
that owns the infrastructure or an area that owns the 
infrastructure and is also responsible for operating it? And we 
have got to find a way to deal with that.
    So the next thing I wanted to focus on, I guess, is----
    Mr. Shuster. That means you are going to wrap up.
    Mr. Fauver. OK. We need to have dedicated funding for both 
capital and operating expenses going forward, and that is in 
partnership between State and Federal Government. Thank you.
    Mr. Shuster. Thank you very much. Just do not tell the 
Secretary I cut you off.
    [Laughter.]
    Mr. Shuster. And thank you very much for being here today.
    Next is Mr. Thomas Simpson, who is president of the Rail 
Supply Institute. Mr. Simpson, please proceed.
    Mr. Simpson. Thank you, Mr. Chairman. I am honored to be 
here today. I am here on behalf of over 225 members of the 
Railway Supply Institute, the companies that provide goods and 
services to our Nation's freight and passenger railroads. They 
employ somewhere between 100,000 and 150,000 people.
    The--I would like to talk a little bit about the economic 
downturn, the effect it has had on my industry. Strong railroad 
capital expenditures continued through the downturn, and that 
benefitted communications, the maintenance of members. The 
catastrophic loss of freight traffic, however, adversely 
affected the freight car and locomotive builders. Only now are 
they starting to enjoy a tenuous rebound. And, of course, 
sporadic investment in our city passenger rail has not allowed 
that sector to grow like it should be able to.
    I am going to refer you to my wonderfully written 
testimony, and simply list the issues that are of importance to 
us, and would like to discuss them at length, if you would like 
me to.
    We think you should continue the section 130 highway rail 
grade crossing safety program, the program that allows lights 
and gates to be installed at highway rail intercrossings, and 
also continue to fund Operation Lifesaver. The Railway Supply 
Institute was a founding founder of the Operation Lifesaver, 
Incorporated. I sit on its board of directors. It is hard not 
to argue that Federal investment in the section 130 program and 
Operation Lifesaver has led to the dramatic decrease in 
accidents at highway rail grade crossings, with an increase in 
traffic expected on both our highways and our railroads. With 
faster passenger trains and more passenger trains, now is not 
the time to stop funding those two very important highway rail 
safety initiatives.
    I join my friends, Joe McHugh and Bill Millar, to argue for 
a dedicated source of funding for intercity and high-speed 
passenger rail that will allow Amtrak and the States and, yes, 
suppliers to plan and invest in the future without having to 
wait year in and year out for appropriations.
    You should simplify the Buy America regulations. Currently 
there are three different Buy America policies: one for 
transit, one for Amtrak, and one for high-speed rail. At best, 
this is confusing to suppliers, and they ought to be unified 
and uniform.
    I ask you to retain the current truck size and weight 
policy that the Federal Government has. An increase in truck 
size and weights will devastate the freight car-building 
industry, the car-leasing industry. And only now, as I pointed 
out, are they enjoying a tenuous rebound.
    We, of course, endorse the short line infrastructure tax 
credit.
    And all these programs that we endorse are incredibly 
important to the railway supply industry, and incredibly 
important to creating--preserving and creating jobs in this 
country.
    I will bring it in on time, Mr. Chairman. Thank you very 
much.
    Mr. Shuster. I appreciate that. You made up for PennDOT 
going over.
    [Laughter.]
    Mr. Shuster. I will take note of that. Thank you very much, 
Mr. Simpson.
    Next, Mr. Scott Paul, who is the executive director of the 
Alliance for American Manufacturers. Mr. Paul, please proceed.
    Mr. Paul. Mr. Chairman, Ranking Member Brown, thank you for 
the opportunity to testify today. I speak to you as the 
executive director of a labor management partnership that 
includes many stakeholders that make rail and make products 
that go into the rail infrastructure, including the workers at 
ArcelorMittal in Steelton, in Pennsylvania. And I also come to 
you as a one-time resident of Addison, Pennsylvania, in 
Somerset County, which, as you know, you can miss if you go by 
too quickly.
    Mr. Shuster. Addison?
    Mr. Paul. Addison, yes. I am here to talk about Buy America 
today. We believe strongly that every effort must be made to 
ensure that American-made iron, steel, and other manufactured 
goods are used extensively in our rail infrastructure.
    Buy America is not a new concept. For nearly 80 years, the 
United States has had domestic sourcing or Buy America laws on 
the books. To support our national security capabilities, Buy 
America laws were expanded in the 1940s to apply to defense 
spending. And in the early 1980s, Buy America requirements were 
signed into law by Ronald Reagan for highway and transit 
projects for federally funded grants.
    In a nod to the benefits of domestic sourcing, Federal 
policymakers have applied Buy America provisions to Amtrak and 
to the high-speed rail, intercity rail passenger programs. A 
Buy America provision was first applied to Amtrak when the Rail 
Passenger Service Act was passed by Congress in 1978. And when 
Congress passed the Amtrak Reorganization Act of 1979, it 
reiterated its desire to reinvest U.S. tax dollars in jobs, 
noting in the conference report that ``It is the conference 
committee's strong belief that Amtrak equipment purchased with 
U.S. tax revenue should continue to be returned to the U.S. 
economy by strongly favoring American suppliers and U.S. 
labor.''
    That U.S. tax dollars should be reinvested in the economy 
is a view echoed by today's policymakers. The Federal Railroad 
Administration recently observed, relative to the high-speed 
rail program, the Buy America requirements that ``encouraging 
grantees to use manufacturers or suppliers who maximize 
domestic content will help it to achieve its goal of 100 
percent domestic content in the near future.''
    To realize the job-creating and economy-expanding potential 
of Buy America preferences in our infrastructure laws, it is 
important that the preferences apply to all manner of Federal 
aid infrastructure programs in a way that maximizes domestic 
content. As stated in a 2010 Northeastern University study, 
``Full domestic sourcing would dramatically increase 
employment.''
    In the context of passenger and freight rail, this means 
that the Buy America provisions should be applied across 
programs in a manner that maximizes U.S.-produced content. This 
will create more jobs, expand economic opportunity for U.S. 
businesses, and enable businesses to better manage their supply 
chains.
    The domestic content requirement currently applies to the 
high-speed rail program. It should be applied to all Federal 
aid programs for rail infrastructure.
    For instance, the domestic content Buy America provision 
should extend to the railroad rehabilitation improvement 
financing program to require a preference for U.S. taxpayer-
produced goods in return for the $35 billion in tax dollars 
authorized to the RRIF program for direct loans and loan 
guarantees to finance the development of rail infrastructure. I 
would add that the Buy America program does include safeguards 
to present--to prevent monopolization or high costs, and there 
is scant evidence that Buy America requirements raised costs 
for projects that are underway.
    We strongly believe that the waiver process for Buy America 
waivers needs to be made much more transparent and airtight. We 
urge the subcommittee to review ways to increase and streamline 
transparency when waivers are requested and issued. Some, but 
not all, government agencies make waiver requests available to 
the public for 15 days before approving the purchase of goods 
manufactured abroad. We believe that needs to be strictly 
enforced and applied to all Buy America programs.
    I would also point out that the Buy America requirements 
have enabled a supply chain to be developed for the manufacture 
of rail products, that they are fully consistent with our 
international trade obligations, and that they are longstanding 
U.S. policy.
    Thank you for your consideration, Mr. Chairman.
    Mr. Shuster. Thank you very much, Mr. Paul.
    Next, Ms. Helen Sramek, who is the president of the 
Operation Lifesaver.
    Ms. Sramek. Mr. Chairman, thank you, and members of the 
subcommittee, for the opportunity to appear before you today to 
discuss a small, but very important and effective program that 
Congress has supported for almost 40 years.
    Operation Lifesaver exists because of a startling fact: 
About every 3 hours in the United States, a person or vehicle 
is hit by a train. We are the only nationwide public safety 
organization whose sole mission is to save lives and reduce 
injuries at highway rail crossings and on or around railroad 
tracks.
    On our website, you will see the story of Robin Potter, a 
mother from Fresno, California, who lost her 15-year-old son 2 
years ago because he foolishly decided to play chicken with a 
train. That game cost him his life. Robin is now an Operation 
Lifesaver certified presenter. She talks to audiences in her 
community about that horrible day.
    Our website also features the story of a locomotive 
engineer who tells what it is like to be part of a train crew 
watching helplessly as a train is slammed into emergency 
braking, hoping it will stop in time to prevent a collision.
    Operation Lifesaver began as and remains a grassroots-
driven organization. All 50 States have independent OL programs 
under the umbrella of our national program. The national 
organization gives focus, consistency, and expertise to the 
work that is being done in the States. We develop customized 
training programs for target audiences like new drivers, truck 
and school bus drivers, law enforcement and emergency 
responders. We develop the safety messages and materials that 
are used by our volunteers, and we will soon be launching a 
state-of-the-art eLearning program for professional truck 
drivers.
    Because we know that 18- to 30-year-olds are an important 
audience, we are reaching out to them, using social media. Long 
ago, Congress recognized that a modest investment in the 
efforts of a national organization to bring cohesiveness and 
expertise to public outreach efforts would yield results.
    My purpose today is to urge Members of Congress to maintain 
your investment in this national program. The highway trust 
fund dollars that flow to the national organization demonstrate 
that safety is a shared responsibility between the public and 
private sectors.
    Consider the following: A collision between a train and 
vehicle is likely to be devastating, usually resulting in loss 
of life or catastrophic injury. These collisions tie up 
crossings for hours, wreaking havoc in communities, and 
impeding the flow of commerce. Forecasts are projecting more 
trains in our future. Freight traffic is increasing as the 
economy improves. We expect more commuter and light rail 
systems to come online as passengers turn to rail to meet 
growing transportation demand.
    The rate of pedestrian rail casualties has increased, 
bringing with it the need for OL to enhance its efforts on the 
trespass issue. An impatient risk-taking population either does 
not know or ignores the fact that walking or playing on train 
tracks is illegal and possibly fatal.
    Today's Operation Lifesaver recognizes that its traditional 
methods of public outreach have moved us forward and saved 
lives. But a small national organization like ours is nimble, 
adapting to today's world, where technology dominates every 
form of communication.
    To conclude, in the four decades since its founding in 
1972, OLI's grassroots network has become part of the national 
rail safety solution through partnerships, presentations, 
organized media events, and more recently, the enhanced use of 
technology.
    I urge Members of Congress to maintain your investment in a 
national Operation Lifesaver program. As the need for safe 
transportation grows, so does the value of Operation Lifesaver. 
Thank you.
    Mr. Shuster. Thank you very much, Ms. Sramek.
    Next, Mr. James Stem, Jr., the national legislative 
director for the United Transportation Union.
    Mr. Stem, please proceed.
    Mr. Stem. Good morning, Mr. Chairman, Ranking Member Brown. 
Thank you for the opportunity to present our viewpoint, and the 
concerns of the 70,000-plus men and women that are working 
today, as we speak, operating the trains that are moving 
freight and passenger trains around the country.
    The bipartisan leadership of this committee in the last two 
decades have held several dozen hearings and--confirming the 
direct relationship between adequate rail safety oversight and 
the profitability of our Nation's railroads.
    Safety is not just good public policy in our rail industry. 
It is also good business practice. The record profitability, 
the record productivity of our industry are the results of the 
current regulatory scheme affecting the rail operations. Today 
an average manifest freight train will contain more than $150 
million worth of equipment and commodity. And the operation of 
that train over hundreds of highway, rail at-grade crossings 
also could potentially involve hundreds of millions of dollars 
in potential liability for that railroad company.
    And we, the United Transportation Union, and every aspect 
of this industry, supports Operation Lifesaver. And I would 
like to point out that, by definition, high-speed rail is the 
solution that eliminates grade crossings.
    The United Transportation Union and other rail unions have 
been an integral part of this committee's actions on rail 
safety and railroad development. And we commit to you that we 
will continue to offer our view of reality for your 
consideration.
    Our railroad industry does not have a problem today with 
the current oversight process for the movement of hazardous 
materials. That does not exist in our industry. We do have a 
major problem in the application of the current hours of 
service laws for safety-critical operating employees. I will 
discuss the needed corrections and application in a moment.
    The most important point that we will make today is that 
the current regulatory process in place within the USDOT is 
working very well for our Nation's railroads and other 
departments in the industry. In these times of economic strife, 
our Nation's freight railroads are enjoying record 
profitability and record productivity. We urge this committee 
to keep in mind that the laws and regulations that are in place 
today have not hampered the ability of our Nation's railroads 
to prosper significantly during the current economic downturn.
    The key to this regulatory success is a consensus-based 
negotiated rulemaking process called the Railroad Safety 
Advisory Committee. Virtually every person that is delivering 
testimony before you today is a part of that process. RSAC has 
top-level representation from Class I railroads, passenger 
commuter railroads, short line railroads, the NTSB, the rail 
suppliers and equipment. RSAC was first chartered during the 
Clinton administration, and was widely accepted because, for 
the first time ever in our history, every constituency had an 
opportunity to present their ideas and concerns in the presence 
of other subject matter experts in the industry.
    In our discussion today concerning the safe movement of the 
hazardous materials, no action would produce a higher level of 
return in safety than giving the operating employees a 
predictable work schedule. The Rail Safety Improvement Act, as 
signed into law, provides 10 hours of undisturbed rest between 
work assignments. The current application of that required rest 
period is immediately following safety-critical service. This 
application is misplaced, because it does nothing to improve 
the predictability of the work schedule.
    One small improvement that will make a tremendous 
difference in the safety of all train operations is to simply 
move the required 10 hours of undisturbed rest from immediately 
following service to immediate preceding service.
    We have included in our testimony today some bullet points 
that we would like to work with this committee to have 
introduced that will provide some hours of service technical 
corrections.
    Thank you for the opportunity to testify.
    Mr. Shuster. Thank you very much, Mr. Stem.
    Next, Mr. Stephen Bruno, the vice president of the 
Brotherhood of Locomotive Engineers and Trainmen.
    Mr. Bruno, please proceed.
    Mr. Bruno. Good morning, Chairman Shuster, Ranking Member 
Brown, and members of the committee. Thank you for holding this 
hearing. My name is Stephen Bruno. I am the national vice 
president and the interim director of regulatory affairs for 
the Brotherhood of Locomotive Engineers and Trainmen.
    In the short time I have available, I would like to address 
the issue of removing regulations in the industry before I move 
on to our specific concerns for the surface transportation 
reauthorization.
    Many of the regulations that exist were created in response 
to tragedies. The most effective regulations in the complicated 
railroad regulatory scheme were developed by stakeholders, 
usually done through the Federal Railroad Administration's 
railroad safety advisory committee process, in response to 
safety concerns. Adding, amending, or removing regulations 
should use the same process.
    I would like to briefly mention a few proposed regulations, 
including emergency escape breathing apparatus and positive 
train control, and the existing regulations for the movement of 
hazardous materials. Such regulations will and so save lives by 
preventing accidents and fatalities.
    I would like to draw your attention to positive train 
control, or PTC. PTC is a safety overlay that will 
significantly reduce human factor-related accidents, and 
prevent loss of life. The railroads' suggestion last month that 
they will implement other alternative safety practices and 
devices which will provide an equivalent level of safety is a 
disingenuous statement. These technologies that they cited have 
been available for decades, and they are now only proposing to 
install them to avoid the PTC mandate. If the mandate is 
removed, the railroad's incentive to install these alternatives 
will also be removed. It will never happen.
    Regarding the hazmat, in March, last March, we filed 
comments with FRA on special movement permits for leaking tank 
cars. The number of these movements has steadily increased over 
the past 16 years, and it has doubled since 2007. This is a 
significant increase, and it must be investigated.
    I would like to turn to another issue that might be 
included in the surface transportation reauthorization which 
concerns the BLET. For 40 years, Amtrak has run our Nation's 
passenger rail system in an unparalleled way. Amtrak and its 
skilled employees have managed to move passengers in the 
safest, most efficient means possible, despite being 
appropriated only enough money to fail. Congress can best 
ensure the public good by maintaining Amtrak as our Nation's 
passenger rail service provider.
    History warns us that private service would only be 
provided where it is profitable for investors and shareholders. 
The public good would be ignored. Therefore, instead of 
threatening our citizens with privatizing Amtrak, you should 
instead be funding it at levels that will let it thrive.
    We are in the process of finalizing technical corrections 
to the hours of service portion of the Rail Safety Improvement 
Act. And I would like to urge the subcommittee to seriously 
consider adopting them. Specifically, these corrections 
establish the 10-hour call for duty, and a reduction of excess 
limbo time, which will greatly reduce fatigue, improve safety, 
and ultimately improve the quality of life for our members.
    In summary, the BLET believes although Congress has a place 
in broadly defining areas of safety that must be addressed as a 
matter of public policy, regulation is the best--excuse me--
regulation is best written in a fashion that allows for those 
with a stake in the rules to have a hand in their creation and 
amendment. Railroad regulation should be crafted, revised, or 
removed only after careful consideration by the subject matter 
experts from the railroad industry.
    So, thank you for your time, and I will be happy to answer 
any questions that you may have.
    Mr. Shuster. Thank you very much, Mr. Bruno. And next, Mr. 
Leonard Parker, the national legislative director for the 
Brotherhood of Railroad Signalmen. Mr. Parker, please proceed.
    Mr. Parker. Mr. Shuster, Ranking Lady Brown, we thank you 
for inviting BRS to participate in this hearing. The 
Brotherhood of Railroad Signalmen is highly supportive of 
development of high-speed passenger rail, expansion of 
intercity passenger rail, and expansion of commuter rail 
service. This is a long time coming, and we are pleased that 
the Congress and the administration have recognized that rail 
is an underutilized resource that can be utilized to provide 
safe, efficient, effective, and environmentally sound passenger 
transportation.
    But it is important to recognize that safe and effective 
passenger rail transportation depends on highly skilled and 
professional railroad workers, many of whom, especially 
signalmen, are certified to perform various forms of railroad 
work.
    Railroad work involves unique skills and training, and 
sometimes special certification. That is certainly true of 
signal work. Consequently, railroad workers on the major 
freight railroads, Amtrak, and the major commuter lines is 
performed by railroad workers in the traditional crafts 
recognized by the NMB.
    Professional railroad employees have a proven record of 
accomplishment of successful work on joint-owned commuter rail 
systems. Furthermore, professional railroad employees are 
responsible for the operating, dispatching, construction, 
rehabilitation, and upgrade of freight lines, and signal 
systems used in commuter passenger service throughout the 
United States. Especially in the northeast, rail workers 
operate and maintain the major commuter rail systems MBTA, 
Metro North, Long Island Railroad, New Jersey Transit, SEPTA 
Metro.
    For the same reason, work on new high-speed rail operations 
and expanding intercity passenger rail operations should be 
done by railroad workers. Certainly persons who do work for the 
higher speed passenger operations, whether train movements, 
control track and signal work, equipment work, or 
administrative work, should be no less skilled and no less 
qualified than persons who do such work involved with the 
movement of cargo.
    The ability of entities that do work connected to high-
speed rail operations to hire qualified employees to perform 
their work will depend on those entities being rail carriers. 
Because rail carriers will not accept jobs--rail employees will 
not accept jobs with entities that are not rail carriers, since 
railroad workers who leave career employment lose substantial 
vested railroad retirement benefits, and the rights and 
protections provided under Federal railroad laws.
    There are some who want to enter the railroad industry and 
perform work on railroad lines, but who seek their own economic 
advantage by attempting to perform railroad work without being 
rail carriers under the Federal railroad laws, and by using 
workers who do not have the rights and benefits mandated by the 
Federal railroad laws. The race to the bottom must be resisted.
    While certain small commuter railroads have engaged in 
the--railroad work among multiple contractors who are not rail 
carriers, this unfortunate practice is not followed on any of 
the major freight railroads, major commuter railroads, or 
Amtrak. All those entities recognize that integrated railroad 
operations and a single-carrier operating employing railroad 
workers to perform traditional railroad work is the safest and 
most effective and efficient method of railroad operations.
    As the Federal Government encourages and helps fund the 
promotion of high-speed and expansion of intercity passenger 
rail transportation, it should make sure that it is providing 
real rail transportation that employs real rail workers, not 
knock-offs. We are the real McCoy, rail transportation that 
utilizes real rail workers. To the extent that Amtrak is used 
to provide new service, they must be rail carriers who employ 
workers covered by the Federal railroad laws.
    Talk of privatizing the northeast corridor passenger rail 
service ignores recent history. The current private freight 
railroads once provided passenger service, too. Freight and 
passenger service were not separated. Passenger service was 
part of the common carrier obligation. However, the freight 
railroads were dramatically losing money over the passenger 
service, and could not continue to provide the service. Amtrak 
was created because the private sector could not provide 
passenger rail service. The freights were relieved of their 
common carrier obligation for passenger service.
    In return for allowing Amtrak to operate on their lines, 
intercity passenger service is provided by Amtrak, not because 
the government sought to provide this service, but because the 
private sector was unable to do so.
    The PRIIA all--PRIIA provides the collective bargaining 
agreements applicable on a railroad whose right of way is being 
used to remain in full force and effect, and that the rights, 
privileges, and benefits of railroad workers be preserved. This 
is a mandate that the employees who perform work related to 
high-speed rail and intercity passenger rail supported by the 
Federal railroad funds must be railroad workers covered by the 
RLA or FELA. This mandate must be continued. Thank you.
    Mr. Shuster. Thank you very much, Mr. Parker. And next, Mr. 
Rick Inclima, who is the director of safety for the Brotherhood 
of Maintenance of Way Employes. Mr. Inclima, please proceed.
    Mr. Inclima. Good morning, Mr. Chairman, and thank you, 
Ranking Member Brown, and members of the subcommittee. My name 
is Rick Inclima. I am the director of safety for the 
Brotherhood of Maintenance of Way Employes Division. On behalf 
of our 35,000 members, thank you for holding this hearing on 
regulatory reform.
    In the short time available this morning, I would like to 
touch on just a few regulatory issues here. You have already 
heard about the Railroad Safety Advisory Committee. It was 
created in 1996 to develop a consensus by all interested 
parties for FRA rulemakings. It has been very successful in 
mitigating regulatory burdens upon the industry. Railroads and 
safety have benefitted from regulations developed through the 
RSAC. Regulatory review in the railroad industry is a constant 
and ongoing consensus-based effort between labor, management, 
and government, and we encourage this subcommittee to continue 
its support for the RSAC process.
    Regarding DOT/OSHA jurisdiction, it is vitally important to 
maintain the current shared jurisdiction between OSHA and DOT 
over hazmat safety. The issue of shared jurisdiction has long 
been established between FRA and OSHA. In its March 1978 policy 
statement, FRA determined that it should not attempt to 
regulate areas already covered by regulations issued by OSHA. 
The 1978 policy statement established the current complementary 
jurisdiction between FRA and OSHA, and continues to guide the 
shared jurisdictional authority which has served the safety 
needs of the industry and the public for well over 30 years.
    It would be an ironic mockery of regulatory reform to 
eliminate the role of OSHA in protecting worker safety and 
forcing DOT to expend considerable taxpayer dollars to hire and 
train personnel, develop requisite experience, and promulgate 
rules to fill the resultant regulatory void.
    Regarding DOT training grants, the National Labor College, 
here in Silver Spring, Maryland, has provided over 28,000 rail 
workers with comprehensive, quality hazardous material training 
since 1991. This program continues to be funded by non-DOT 
grants and private grant sources, and is considered a model of 
worker training.
    In 2008, the DOT awarded a train-the-trainer grant to the 
college to train hazmat instructors. Under this competitive 
grant proposal and award, 221 DOT regional trainers completed 
hazmat instructor's training. In turn, these regional trainers 
have already delivered quality hazardous material training to 
over 2,600 additional rail workers back at their home 
locations, including mixed group of frontline rail workers and 
rail management, local firefighters, EMTs, and emergency 
personnel. The DOT grant program is funded by hazmat 
registration fees, not through Federal tax dollars. It does not 
add to the Federal deficit.
    We implore the subcommittee to continue its support for 
this highly successful and nationally recognized worker 
training program.
    Concerning hazardous material regulations, comprehensive 
hazmat regulations are necessary to protect the public. The 
railroads, under oath, have stated to regulators that some 
cargoes are too dangerous for them to carry safely, given their 
cost benefit analysis. However, the railroads themselves have 
never advocated that less regulation is the solution to these 
problems.
    In closing, Mr. Chairman, our written testimony also 
addresses other areas of regulatory oversight. Labor has also 
recently submitted substantial comments directly to DOT 
regarding issues of regulatory review and regulatory reform. 
With your permission, Mr. Chairman, we would like to submit 
additional information to the record.
    The DOT, through the FRA and the RSAC, has made every 
effort not to unduly burden railroads through excessive 
regulations. If the FRA is erred in this regard, it has been on 
the side of under-regulating. The Rail Safety Improvement Act 
was a congressional declaration of that fact. Railroad 
regulations are sufficiently flexible, are subject to frequent 
and comprehensive review through the RSAC, and contain liberal 
waiver provisions that render complains about over-regulation 
largely moot.
    Mr. Chairman, thank you and the subcommittee for the 
opportunity to appear before you today.
    Mr. Shuster. Thank you very much, Mr. Inclima. And if you 
have additional information for the record, we will be happy to 
take that and put it into the record.
    Mr. Inclima. Thank you, Mr. Chairman.
    Mr. Shuster. Thank you. Next, Mr. Gary Self, who is the 
vice president and general manager of Nelson Brothers, 
Incorporated, and he is representing the Institute of Makers of 
Explosives.
    So, Mr. Self, please proceed.
    Mr. Self. Chairman Shuster, Ranking Member Brown, and 
members of the subcommittee, thank you for this opportunity to 
share our efforts to comply with the requirements imposed on 
our industry by PHMSA by the special permits program.
    It is a cautionary tale that underscores the grave concern 
the commercial explosives industry has with the agency's use of 
its special permit authority to mandate unproven and untested 
technologies on motor vehicles transporting these materials. 
PHMSA has power to modify special permits for new conditions 
without the cost benefit analysis that would be required of 
rulemaking.
    In August of 2009, PHMSA issued notices to holders of 
special permits that authorized bulk explosives vehicles that 
it was modifying the conditions of the permits, including one 
change requiring a battery disconnect switch activated from a 
remote location.
    Between August and December 2009, the battery disconnect 
standard was rewritten 3 times. In January 2010, Nelson 
Brothers began the process of trying to comply. We wanted to 
pursue an installation schedule to meet a January 1, 2011, 
compliance deadline that would be the least disruptive to our 
operations. We were able to identify only one foreign sourced 
supplier of a battery disconnect system that promised to meet 
the performance standard stated in the special permit.
    Company and OEM engineers and disconnect manufacturers and 
technicians were involved in the initial installation of this 
high-end after-market system. After successful testing, all 
affected company vehicles were retrofitted with a disconnect 
system at a cost of approximately $5,000 per vehicle.
    Initial problems began in January of 2011 with the 
excessive corrosion around the poles of the constant duty 
solenoid. Replacement of solenoids and protection of both poles 
appeared to address these problems. A program was put into 
place to protect all solenoid poles at subsequent truck 
inspections.
    On January 27, 2011, moisture build-up in a 3-pin control 
cable of the battery disconnect caused the system to fail, 
resulting in a non-controlled shut-down of the truck traveling 
on a public highway. A review of the incident indicated that 
extra dielectric grease was needed in the three-pin connector 
to protect it from moisture. Again, a plan was put into place 
to add the dielectric grease during the next vehicle 
inspections.
    Five days later, a second vehicle with this system 
experienced failure and uncontrolled shut-down. The failure was 
traced to a butt connector that corroded and came loose. The 
vehicle was traveling, again, on a public highway. In both 
cases, the drivers were able to keep the vehicles under 
control, helped by good weather and a straight, uncongested 
roadway. But the risk posed to the public and to company 
personnel caused us to immediately disconnect the retrofitted 
system from all vehicles.
    Nelson Brothers engaged in a good faith effort to comply 
with PHMSA's battery disconnect standard in advance of the 
January 1, 2011, deadline. PHMSA engineers have been unable to 
show how they would configure a disconnect system to comply 
with their own standard. We submit that the type of 
sophisticated shut-down systems envisioned by PHMSA and the 
modified special permits are not advanced enough to be safely 
and reliably used on today's trucks. Furthermore, agency 
efforts to impose a remote or self-actuated or multiple battery 
disconnect requirement without major research places the public 
at grave harm.
    We have learned over the years to pay attention to close 
calls or near misses. These warning signs should not be ignored 
by PHMSA or Congress. Congress never intended that special 
permits be a long-term placeholder for permanent regulation. 
Rather than continue the rewriting of the effective special 
permits to impose unproven technology, PHMSA should be focused 
on incorporating into the regulations current industry 
standards that have demonstrated over decades the safe 
operation of bulk explosives.
    We welcome your help to stop PHMSA's demands to retrofit 
vehicles carrying explosives with untested technology.
    Thank you, sir.
    Mr. Shuster. Thank you very much, Mr. Self. Thanks for 
coming here today.
    Next, Mr. John Conley is the president of the National Tank 
Truck Carriers. Mr. Conley.
    Mr. Conley. Good morning, Mr. Chairman Shuster, Ranking 
Member Brown, and members of the committee. My name is John 
Conley. I am president of National Tank Truck Carriers. My 
association represents trucking companies that deliver 
materials in bulk, such as petroleum products, chemicals, food 
products, and cement. Our membership also includes companies 
that provide equipment and services to the tank truck industry.
    I first would like to commend the safety professionals at 
the Pipeline Hazardous Materials Safety Administration, and 
their predecessor agency, with whom I have worked for over 35 
years. As Chairman Shuster has observed, the United States is 
served by a very safe hazardous materials transportation 
network. This system that is copied by countries around the 
world is a credit to and verification of the close cooperative 
relationship between the agency and the industry in our shared 
goal of hazardous materials incidents reduction or elimination.
    We sometimes disagree on how to meet that shared objective, 
and I am here today to discuss two issues that cause my members 
real concern.
    The first issue involves the transportation of flammable 
materials in the loading line of cargo tanks, the so-called wet 
lines issue. Certainly this is not a new topic to veteran 
members of this committee.
    The second issue concerns a rulemaking from PHMSA which I 
believe would compromise hazardous materials transportation 
regulatory compliance enforcement, and safety. That rulemaking, 
HM-241, would result in severely restricted public access to 
the regulatory process, and to currently applicable regulatory 
requirements in the hazmat regulations.
    NTTC appreciates the work that both the Chairman, and 
especially Ranking Member Brown, of this subcommittee devoted 
to the wet lines issue in the 111th Congress. This issue has 
now taken on a life of its own, as PHMSA recently published 
another proposed rulemaking to ban wet lines. Unfortunately, in 
an attempt to adapt economic cost benefit facts to fit a failed 
theory, PHMSA bases much of its HM-213D on an unproven manual 
purging device available only from one commercial provider. To 
our knowledge, no carrier has purchased or tested this manually 
operated device, which is supported only by the claims of its 
manufacturer. Our analysis of this recent wet lines ban reveals 
that its cost far exceeds its potential benefits.
    We also remain concerned that any retrofit requirement 
could be detrimental to the safety of the workers in the tank 
truck facilities and, therefore, ask this committee to mandate 
a study of the wet lines issue while enjoining PHMSA from 
finalizing the rule proposed on January 27th. Such a study 
should consider the actual scope of the perceived problem, the 
advantages and disadvantages of possible operational solutions 
to the perceived problem, including the potential increased 
risk of exposure to shop workers, and whether or not the issue 
should be addressed at the petroleum loading rack, or in the 
thousands of pieces of equipment operated throughout the 
country.
    The second issue I would like to briefly address is a PHMSA 
rulemaking that would turn over the cargo tank rule-writing 
function it now so competently exercises in title 49 parts 178 
and 180 to third-party service providers. The cost-free and 
immediate availability of the current regulations and, more 
importantly, ready access to the open regulatory process would 
be severely impacted for no safety reason.
    The existing process would be replaced by a closed process 
where private entities develop copyrighted materials to be 
adopted by the agency, and purchased by the regulated public 
and enforcement communities. This would cost up to $600 for a 
carrier, law enforcement person, or anyone else to have access 
to publications and regulations that are currently in the 
regulations and free to the public.
    I would be happy to answer any questions when the time 
comes. Thank you, sir.
    Mr. Shuster. Thank you very much, Mr. Conley. Thanks for 
coming today.
    Next, Ms. Mary Pileggi, who is North American logistics 
manager for DuPont, and she is here on behalf of the American 
Chemistry Council. And I must ask you. Are you any relation to 
the majority leader of the Pennsylvania State Senate, Don 
Pileggi?
    Ms. Pileggi. No, I am not.
    Mr. Shuster. OK. It would have been a bonus for you, if you 
were.
    [Laughter.]
    Ms. Pileggi. OK. I change my answer.
    Mr. Shuster. Please proceed.
    Ms. Pileggi. Thank you, Chairman Shuster, Ranking Member 
Brown, and members of the committee. My name is Mary Pileggi, 
and I am here to testify on behalf of the American Chemistry 
Council. I am the North America logistics manager for DuPont. I 
am responsible for freight transportation in the United States 
and Canada.
    DuPont purchases approximately $550 million in freight 
transportation. So you can understand why the topic of today's 
hearing is of great importance to us, as well as other members 
of ACC.
    Chemical producers and their customers rely on carriers to 
deliver chemicals where they are needed, from water treatment 
plants to farms to factories. Because some of the materials 
that we ship are hazardous materials, we work with our 
transportation partners to find ways to build upon an already 
impressive safety record. Through ACC's Responsible Care 
initiative, member companies and our partners are committed to 
continuous transportation safety improvement. We have invested 
billions of dollars in training, technology, and tank car 
safety.
    The Federal Government has and must continue to play a 
central role, when it comes to ensuring the safe transportation 
of hazardous materials. Congress wisely established a uniform 
national regulatory system under the Hazardous Materials 
Transportation Act. The goal is not to prevent the movement of 
these materials, but to ensure they are delivered safely, 
securely, and reliably. This program has worked well in making 
hazmat transportation safe for workers, our communities, and 
emergency responders.
    Congress will soon consider legislation to reauthorize the 
act. ACC would like to go on record in strong support of this 
regulatory program which ensures that all aspects of hazmat 
transportation are consistent across the Nation.
    ACC is concerned about one aspect of DOT's administration 
of the program. Special permits allow safety-based variation 
from DOT's regulation. Special permits can only be granted when 
DOT finds at least an equivalent level of safety. With special 
permits, industry gains flexibility with no loss of safety to 
the public, and DOT learns whether new procedures and 
technologies can be incorporated into its rules.
    Unfortunately, DOT has recently imposed onerous paperwork 
barriers that have slowed the approval of special permits, and 
increased cost to industry. We urge Congress to direct DOT to 
rescind those complex and burdensome interpretations.
    ACC also supports a sensible approach to implementing the 
Rail Safety Improvement Act, which will deploy new 
technologies, like positive train control. PTC and other risk 
mitigation measures can advance safety and enhance productivity 
throughout our national rail system. DOT, and possibly 
Congress, will reconsider important aspects of the PTC rule. We 
support exploring less burdensome approaches. But as that 
effort moves forward, whether through regulation or 
legislation, any changes to the PTC rule must remain consistent 
with the common carrier obligation. It also must allow 
producers to ship products where customers need them, now and 
into the future.
    In addition, it is critically important to ensure that the 
cost of implementing PTC is allocated fairly. The country needs 
to maintain a safe and reliable system of hazardous material 
transportation that is governed by uniform national rules. The 
challenge is to ensure that all stakeholders work together so 
this system continuously improves.
    Chairman Shuster, Ranking Member Brown, and members of the 
subcommittee, we look forward to working with Congress and the 
DOT to achieve this goal.
    Mr. Shuster. Thank you very much, Ms. Pileggi.
    And, before we go to our final witness, would Mr. Fauver 
please come back to the table? The Ranking Member has a 
question for you.
    I just want to remind the Ranking Member he works for 
PennDOT, not FDOT, so take it easy on him.
    [Laughter.]
    Ms. Brown. That is a good thing.
    Mr. Shuster. And we are going to have some questions for 
those that are still in the room, if there are questions for 
some, after we get done with Mr. O'Connor, Mr. Kevin O'Connor, 
who is the assistant to the general president for the 
International Association of Fire Fighters.
    Mr. O'Connor?
    Mr. O'Connor. Thank you very much, Chairman Mica, 
Subcommittee Chairman Shuster, Ranking Member Brown, and 
members of the committee. My name is Kevin O'Connor, and it is 
my privilege to lead the governmental and public policy 
division of the International Association of Fire Fighters. But 
more importantly for this conversation, I have experience as 
both a career and a volunteer firefighter, and specific 
experience in hazardous materials response.
    During my career in Baltimore County, Maryland, I had the 
unique opportunity to respond to one of the worst train 
disasters in American history, the tragic Amtrak accident on 
January 4, 1987, in Chase, Maryland. I was assigned a hazardous 
materials company in the southeast portion of Baltimore County, 
and responded to several hundred hazmat incidences over my 
career.
    My testimony today will focus on a very narrow, albeit 
important, aspect of this conversation on railroad, pipeline, 
and hazardous material safety, and that is protecting both our 
communities, making sure our citizens are safe, and doing that 
through ensuring that firefighters in communities large and 
small, career and volunteer, have adequate training to respond 
to these very, very complex incidences and responses.
    Let me first thank you both, Mr. Chairman and Ranking 
Member Brown, for your service in the Congressional Fire 
Services Caucus. We are in town meeting today. And, in fact, 
this afternoon there are educational components on this very 
topic.
    In spite of our best efforts and our friends' in industry, 
we all recognize that accidents will occur. In fact, there are 
over 350,000 responses to hazardous materials incidents across 
the country on an annual basis. And I am sad to report that in 
its second needs assessment of the U.S. fire service, the U.S. 
Fire Administration reports that 38 percent of all fire 
fighters do not have any training with respect to hazardous 
materials response. More troubling, 29 percent of all fire 
departments admit that they do not provide any training to 
their first responders in this very, very important and life 
safety issue.
    Beyond initial training, OSHA also requires that people 
trained in hazardous materials response are re-certified and 
have annual re-certification training to keep up their skills 
and competency. I am very happy to report that, through this 
committee, and through the Department of Transportation's 
hazardous materials emergency preparedness grant program, the 
International Association of Fire Fighters has been able to 
address this very serious problem.
    We have a very unique and effective train-the-trainer 
program, which is funded through DOT. Essentially, it is a 
peer-to-peer program, where firefighters actually go out into 
the communities and train other firefighters in the train-the-
trainer type model. The program has received rave reviews from 
GAO and anyone else who has looked into this program. It is a 
very effective program to ensure that revenue is appropriately 
expended. We get the most bang for our buck through this 
program.
    Over the years, the IAFF has been able to train directly 
3,000 providers who have, in turn, trained over 70,000 first 
responders to the operations level, so that their communities 
have this modicum of protection. The program is provided free 
of charge to any jurisdiction. If a jurisdiction seeks this 
training for any of its responders, it simply asks the IAFF, we 
go out and provide the training. What we ask is that, in any 
reauthorization, this program be funded to its current level. 
It is a successful program. It works in large cities and small 
communities.
    We have two other related requests with respect to this 
program. First, OSHA 1910.120 specifies various levels of 
training for hazardous materials, from awareness level all the 
way through incident command. We feel that it is appropriate to 
be very specific that any training to first responders rise to 
the level of operations. That is, when a firefighter gets on 
the scene or an emergency responder, they know what to do, and 
they can adequately respond.
    The third ask that we have is this program right now is 
limited to train the trainer. While that is very effective on 
an aggregate basis to provide operations training, we would 
like to see the program expanded so that we can do direct 
training for the technician level, which is the higher level of 
response for communities.
    Thank you very much, and I stand ready to answer any 
questions.
    Mr. Shuster. Thank you very much, Mr. O'Connor. Thanks for 
coming today.
    Also, I would like to ask that Mr. Hamberger please come 
back to the table.
    Mr. Hamberger. [Off mic.]
    Mr. Shuster. Well, you know, you are Jay Rockefeller's 
favorite lobbyist.
    [Laughter.]
    Mr. Hamberger. Thank you, sir.
    Mr. Shuster. And Mr. Steve Klejst, who is with the NTSB, 
who is going to sit in for Mr. Hart? Thank you.
    And remember, he is PennDOT, not FDOT, so--and I recognize 
the Ranking Member for a question.
    Ms. Brown. Thank you. And part of the bill is to just wipe 
out Florida DOT, at least.
    I have a, first of all, a unanimous consent to include a 
statement by the Air Line Pilots Association on this hearing, 
for the record.
    Mr. Shuster. Without objection, so ordered.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Ms. Brown. My question to you, sir. We talked about the 
RRIF loan. And you indicated that some DOT agencies, if you 
apply for a loan, you have already gotten some permits, and 
they won't accept that one. And we heard this testimony when we 
went to California and different places, that that was one of 
the problems that we are having. We have over $300 billion, and 
I don't think we have lent out but about $100 billion. To me 
that would be one way, with the shortness of funds, to get some 
of our communities working.
    What are some of your recommendations, additional?
    Mr. Fauver. Well, I think my specific comment was in regard 
to NEPA, and NEPA coordination and NEPA clearance.
    Ms. Brown. Right, right.
    Mr. Fauver. We have got----
    Ms. Brown. How can we better----
    Mr. Fauver. There is a rule within USDOT that encourages 
the separate administrations to coordinate those activities.
    But, in my opinion, NEPA is one law. It applies across the 
board. If one Federal agency is going to oversee and provide 
clearance for NEPA, then--and it is the same project, then the 
other Federal agencies should automatically be able to approve 
that, or be able to accept that approval or that clearance, and 
be able to move on.
    The difficulty, I think, compared to 20 years ago, is that 
we are seeing more and more mixes of Federal funds from 
different agencies involved in projects. We are seeing Federal 
Transit Administration's funds, Federal Highway Administration 
funds, and Federal Aviation Administration funds, and Federal 
Railroad Administration funds all being mixed together to come 
up with an inter-modal project. And if we start with one source 
of funds and get environmental clearance and then we have to go 
back and get the other agencies to independently approve, we 
have experienced 2-year delays in some cases on being able to 
advance projects.
    So, I think that, in reauthorization, if it was just--if it 
was made very clear that if one agency approves the project 
then--and you get--from one agency, then it covers the whole 
project across the entire funding spectrum.
    Ms. Brown. I would like some additional information on 
that----
    Mr. Fauver. Sure.
    Ms. Brown [continuing]. Particular area, because we have 
heard testimony around the country on that.
    My question is on positive train control. I have heard from 
the railroads, both publicly and privately, that the 
implementing of the positive train control is very expensive. 
We want safety, but based on the cost, there are other 
measures.
    And I know that we are negotiating, but you all are not 
very comfortable with these other measures. Or can you all 
discuss that a little bit for us, that--you know, I am not 
trying to change anything that is going on in the courts, I 
just want to know where we are.
    Mr. Hamberger. We are, as you so rightly point out, 
Congresswoman Brown, in discussions with the Federal Railroad 
Administration, not the NTSB. And I appreciated very much the 
testimony of Mary Pileggi, who I am sure has now discovered a 
relationship to the majority leader of the senate in 
Pennsylvania.
    Ms. Brown. That is Pennsylvania.
    Mr. Hamberger. Yes, and on behalf of the ACC, indicating 
that perhaps it is time to take a look at are there other 
approaches that can address the overall risk of an accidental 
release of TIH, not just the preventable--PTC preventable risk, 
but the overall risk profile.
    Only 4 percent of the over-the-road accidents in the 
freight rail industry are PTC-preventable. Now, they are 
horrific when they happen. But we do not really run trains into 
one another too often. And so, what is a major cause of over-
the-road accidents would be mechanical failures or track and 
structure failures. And so, being able to focus more on the 
overall risk profile, rather than just the PTC-preventable 
profile, we think, would improve safety, at least as much as 
installing PTC, and might do so in a more effective, efficient 
way.
    Ms. Brown. Yes, sir?
    Mr. Klejst. Yes. The positive train control system does 
have many benefits----
    Ms. Brown. The microphone, sir, is it on?
    Mr. Klejst. Yes.
    Ms. Brown. OK.
    Mr. Klejst. The light is on. The positive train control 
system does have significant benefits to railroad safety. It 
provides a safety overlay for some of the accidents that we 
have heard through the vice chairman's testimony today in 
derailments and collisions.
    It also provides safety overlays with respect to roadway 
worker incursions, temporary and permanent speed restrictions. 
Whenever there is a situation where a person is involved in the 
operation of a train, there always exists the potential of a 
human error. And this PTC system will provide an additional 
safety overlay to eliminate or minimize the impact of these 
types of accidents.
    Ms. Brown. I think--and this is my last comment--one of 
the--some of the testimony said that it was what--human error, 
and it would be better if we made some adjustments in that, as 
opposed to some of these other measures that we are 
recommending.
    Mr. Klejst. Well, the human error element, while the 
railroads are working diligently to have--for training 
programs, rules and procedures, there is always present the 
possibility of an error made on the decisionmaking process of 
the locomotive engineer. And the positive train control system, 
when implemented on a particular territory, will provide that 
overlay and would, again, prevent these types of accidents when 
there is an error in the rate in which a locomotive engineer 
slows the speed of the train down, involved in a speed 
restriction, or misjudges distance when approaching a red 
signal or a stop signal that could result in a head-on 
collision, a side collision, or a rear-end collision.
    Ms. Brown. The accident that we had here, what--the problem 
was maintenance not doing the work on the brakes and other 
things. And it is supposed to be a grants program to help the 
transit system.
    I had asked the question earlier what was the status of 
those grants and those monies to help those local systems. And 
I know it is not your agency, but could there be other things, 
in addition to the positive train control, that we need to do, 
as far as making sure that we have the inspections on the 
systems?
    Mr. Klejst. The current regulatory environment has, through 
the Federal Railroad Administration, regulations for the 
condition of track, signal systems, and rolling stock, and 
other types of equipment--locomotives, for example. And the--
when there is an accident that is related to any of these cause 
categories, the safety board investigates and makes 
recommendations, if appropriate, in each of these areas. So 
that is one of the areas that we do examine when we conduct 
investigations.
    We do rely on rail carriers to follow through with the 
proper inspection and maintenance procedures and, when 
necessary, go beyond those, which--each carrier does have the 
opportunity to do so, should they desire to.
    Ms. Brown. Thank you. And thank you, Mr. Chairman.
    Mr. Shuster. Thank you. Yes, sir----
    Mr. Hamberger. Might I just----
    Mr. Shuster. Certainly.
    Mr. Hamberger [continuing]. Emphasize for the record--I was 
thinking I was still back in the PTC here, and I want to 
emphasize, as I did a month ago, that when we are talking about 
these alternative risk reduction approaches, we are not talking 
about any passenger lines. We are talking about only for those 
lines which are required under the statute to be implemented 
with PTC because of the TIH shipments. And we are not looking 
at any other approaches where passengers are involved.
    Mr. Shuster. Thank you very much. And could I excuse Mr. 
Klejst, excuse you from the table? I think we are done 
questioning you. And also Mr. Fauver, you can go back to 
Pennsylvania.
    [Laughter.]
    Mr. Shuster. And again, thank both of you for being here 
today. But I would also--no, Mr. Hamberger, you are still 
requested to be here at the table.
    Mr. Simpson, could you come back to the table? Ms. Pileggi, 
if you come back up to the table? Mr. O'Connor, Mr. Paul, Mr. 
Timmons, and Mr. Stem.
    And I believe, Mr. Larsen, I recognize you for 5 minutes 
for questions.
    Mr. Larsen. Thank you, Mr. Chairman. I just have one 
question. It might be a set of questions for Ms. Pileggi. I 
don't know anybody in Washington State named Pileggi, so we 
will start there.
    Your testimony with regards to special permits--I recall 
from last year we had some hearings on this issue of special 
permits. I believe, as I remember, the problem that this 
committee faced was that PHMSA had authority to issue special 
permits, but they were not issuing them according to the 
process they were supposed to use. And I believe we had this 
discussion about safety effectiveness reviews, or something 
along those lines.
    And so, the end result of this was PHMSA did, in fact, 
change their process because of--in part, because of concerns 
expressed by this committee that the special permit process 
seemed to be a little loose. And that--and so your testimony on 
page three, and your oral testimony sort of runs counter to 
what we thought we were looking into last year--it could have 
been 2 years ago; I forget the exact date--and so I think we 
all agree special permits, as you know, are a win-win process. 
There is flexibility. But I guess we determine there is a 
little too much flexibility and not enough oversight from PHMSA 
on the special permit process.
    Could you talk--could you help me understand if I am--if we 
have a conflict in how we see this?
    Ms. Pileggi. OK. I was not part of that particular 
discussion, or involved in that. I can speak from my experience 
from my company's working with special permits.
    Processing time for the permits is a very lengthy period of 
time, where a renewal of a permit in the past may have taken 
hours or days. And given what you have just talked about 
oversight, maybe that is too short. But it shouldn't take 
anywhere from 6 months to a year, either, which is some of the 
situations that we have at hand. And I have heard some of my 
colleagues at other companies discuss it, as well.
    When you talk about a fitness factor and how that is to be 
measured, I know ACC specifically asks that there be some type 
of a rulemaking where you could talk about fitness factors, and 
understand what the criteria are. That is something that we are 
specifically pointing to. One of the others was the factors for 
inclusion.
    So, asking for the listing of all the locations that the 
permit is going to apply, well, when you have a transportation 
container that is being used, it is very difficult, unless you 
list every place in the country that it possibly could pertain 
to, in the application. So it makes it very difficult to go 
through the process in a timely manner, given some of these 
examples that I know that we have dealt with.
    Mr. Larsen. Yes. Well, I appreciate that. That is a little 
more detail for me than in your testimony, and that is good to 
hear. I just did not want to--I did not want this hearing to 
end without sort of exploring this--what we found last year, 
because I think what your testimony sort of outlined for us 
is--well, the way I read it and the way I heard it was, 
``Whatever you did last year, we want you to do the 180.''
    Well, we tried the 180. And we had a hearing to find out we 
did not want to be there. And your testimony seemed to say, 
``Well, no, we do want to be there.'' But I guess after a 
little--after hearing from you a little bit more, you have some 
concerns, but you are also saying there are some things that 
need to be done in the special permit process to ensure that 
special permits are issued to folks who should have them, but 
also that they are going to be complying with some rules that 
otherwise they were perhaps not complying with, which is why we 
had the hearings in the first place last year.
    Ms. Pileggi. That is correct. And I would suggest, since I 
am quoting from my experience, my company's experience----
    Mr. Larsen. Sure, yes.
    Ms. Pileggi [continuing]. ACC can follow up on that with 
you, to answer it fully.
    Mr. Larsen. Love to hear that. Thank you very much. Thank 
you, Mr. Chairman.
    Ms. Brown. Will the gentleman yield?
    Mr. Larsen. I have 42 seconds. I will yield them all to the 
Ranking Member.
    Ms. Brown. You know, I just wanted to remind you the 
hearings that we had, there were major problems in the 
permitting process. That is why we instituted additional 
regulations. So we are willing to work with you, but it was 
blanket permits, people that had them for years, there was no 
follow-up. It was a mess. So we corrected it, and I hope we did 
not overcorrect it. We are willing to revisit the issue, but we 
cannot go back to where we were. And the fact is the auditor 
general and the GAO gave horrible reviews of the permitting 
process.
    Ms. Pileggi. And, Ranking Member Brown, I do not think we 
are saying that we are asking you to go completely back. There 
is a middle ground----
    Ms. Brown. Yes.
    Ms. Pileggi [continuing]. That needs to be met for this to 
work.
    Ms. Brown. We are willing to work with you.
    Ms. Pileggi. Thank you.
    Mr. Shuster. Thank you very much. And now I recognize for 5 
minutes for questioning Ms. Richardson.
    Ms. Richardson. Thank you, Mr. Chairman. And, members, if 
we could answer real quick, because I have got six questions 
here.
    Mr. Hamberger, last Congress the freight railroads had a 
proposal for a tax credit for PTC implementation. Do you guys 
still support that?
    Mr. Hamberger. Yes.
    Ms. Richardson. OK. And, Mr. Simpson, some witnesses have 
expressed concerns over the slow development of PTC technology. 
Can you talk about what your members are doing to ensure that 
this technology is readily available by the deadline of 
December 31, 2015?
    Mr. Simpson. Oh, my lord, I am a government relations guy, 
not a communications signaling engineer. But they are 
cautiously excited about it. Understand the financial situation 
facing the railroads on the cost of implementation, but I think 
they think they can do it by the date certain. I would be happy 
to provide additional information from someone who--a 
communications signal engineer, as opposed to me.
    Ms. Richardson. So, Mr. Chairman, we would like to have 
that information submitted for the record.
    Mr. Simpson. I would be happy to do that.
    Mr. Shuster. Certainly.
    Ms. Richardson. Mr. Stem, the hours of service changes in 
2008 law were designed to provide workers with more rest to 
reduce fatigue on the job. Do you think that this has been 
achieved? And, if not, why not? And what further changes should 
we consider?
    Mr. Stem. Thank you, Ms. Richardson. Mr. Hamberger took my 
seat, as normal.
    [Laughter.]
    Mr. Stem. Hours of service changes that were made in the 
RSIA in 2008 were a step in the right direction. And if those 
hours of service corrections had been implemented as this 
committee passed them, they would have been a lot more 
appropriate than they are today.
    Currently, the safety-critical employees that are operating 
the trains today have a totally unpredictable work schedule. 
The prior notification that would produce a predictable work 
schedule was moved to the end of service. So today, an employee 
has no clue within 40 hours when the employee will be expected 
to return to work. And the only hours of service improvement 
was a mandated 10 hours of undisturbed rest when he gets off 
duty.
    And our suggestions are that logic fatigue science 
indicates it is only a simply change to move that required 10 
hours of undisturbed rest to immediately preceding service, so 
that that safety-critical employee will have a predictable work 
schedule.
    Ms. Richardson. OK. Thank you. And Mr. Simpson, in your 
testimony, in support of Buy America requirements, you 
recommended improving transparency and accountability of 
domestic content requirements, as well as introducing 
incentives to increase domestic content. Could you please 
elaborate?
    Mr. Simpson. Yes, I would be happy to.
    Ms. Richardson. On what specific incentives----
    Mr. Simpson. First of all, there are--as I said, there are 
three different Buy America regulations: one for intercity 
passenger rail, one for transit, and now one for high-speed 
rail. And that seems relatively ludicrous to us, that if Amtrak 
is buying a car it is one regulation, but if Metro is buying a 
car it is a different one. And then, if a high-speed rail, it 
is a different one.
    So, we ought to try to attain 100 percent, because we are 
strong supporters of Buy America. And, as I understand it, that 
is not currently attainable. But some companies can get close. 
The closer a company gets to getting to that 100 percent, it 
seems to us, that company ought to get some kind of reward, 
whether it is a tax benefit or a check--when the buying 
decision is made, a check that this guy can--this company can 
get the--close to 100 percent, so he is a better candidate than 
a company that is only approaching 50 or 60 percent.
    And finally, the waiver process. Every once in a while I 
get a phone call from the Federal Railroad Administration 
saying, ``There is a Buy America waiver request. What do you 
think about it?'' Well, that is hardly a very transparent 
method of granting waivers. And I think that the waiver process 
ought to be more transparent and done more quickly than that.
    Ms. Richardson. Thank you. And my last question is for Mr. 
O'Connor. And that is you talked a lot about the--having the 
need for training. Could you give us some specific examples of 
not having the training? What is the monetary loss, and the 
economic impact? Because I think we all agree that the training 
should be there. But if you--given the other side of the aisle, 
I think it would be helpful to tell them what those economic 
impacts are.
    Mr. O'Connor. Well, at this point I am not really prepared 
to give you specific anecdotal evidence of one specific 
incident and what the cost was.
    I can speak in terms of the overall fire service, and I did 
have the privilege of chairing the Congressional Fire Services 
Institute for a number of years, which is a compilation of all 
the organizations, career and volunteer.
    And some of the issues that this committee has considered 
in the past have been rerouting issues, making sure that every 
community is, you know, appropriately trained and equipped to 
handle--whether it is rail, over-the-road--those type of 
instances.
    We could certainly have our staff research and provide you 
places where there has been a hazardous materials incident, 
whether by rail, whether over-the-road, and in jurisdictions 
where they have not had adequate training, what that has 
necessitated, in terms of an overall State response, a private 
response, et cetera. But right here today I cannot, off the top 
of my head, just say, ``On such and such a date this occurred 
and this was the economic impact.''
    But I think it was articulated very well that when these 
things occur it certainly interrupts commerce. And the more 
quickly that you can mitigate these incidences and move on, the 
better it is for the community and for commerce, as a whole.
    Ms. Richardson. If you could--and if it could be accepted 
for the record--if you could submit some of those examples, and 
also give us a sense, when the training does not occur, how 
many more men and women it requires, and so on. Thank you, and 
I yield back.
    Mr. Shuster. Thank you very much. And I want to again thank 
everybody for coming here today, and testifying. I appreciate 
the back-and-forth from the table and back into the crowd.
    But again, thank you all very much for coming here today. 
It will all be in the record. And I look forward to working 
with you as we move forward. Thank you very much, and this 
hearing is adjourned.
    [Whereupon, at 11:03 a.m., the subcommittee was adjourned.]

</pre></body></html>
